<html>
<title> - LEGISLATIVE PRESENTATIONS OF VETERANS SERVICE ORGANIZATIONS AND MILITARY ASSOCIATIONS HEARING I</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                    LEGISLATIVE PRESENTATIONS OF
                 VETERANS SERVICE ORGANIZATIONS AND
                         MILITARY ASSOCIATIONS
                             HEARING I
-----------------------------------------------------------------------

                           HEARING
                          
                          BEFORE THE

                        COMMITTEE ON 

                      VETERANS' AFFAIRS

                   HOUSE OF REPRESENTATIVES

                  ONE HUNDRED NINTH CONGRESS 

                         SECOND SESSION

                        ---------------

                       FEBRUARY 15, 2006 

                        ---------------

     Printed for the use of the Committee on Veterans' Affairs

                         Serial No. 109-33




                      U.S. GOVERNMENT PRINTING OFFICE
26-287 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 


        LEGISLATIVE PRESENTATIONS OF VETERANS SERVICE ORGANIZATIONS 
                      AND MILITARY ASSOCIATIONS
                            HEARING 1
                    __________________________

                   Wednesday, February 15, 2006
                                         House of Representatives,
                                     Committee on Veterans' Affairs,
                                              Washington, D.C.

The Committee met, pursuant to call, at 10:35 a.m., in Room 334, 
Cannon House Office Building, Hon. Steve Buyer [Chairman of the 
Committee] presiding.

Present:  Representatives Buyer, Bilirakis, Evans, Filner, Michaud, 
Miller, Boozman, Brown-Waite, Bradley, Udall, Herseth, Strickland, 
Berkley. 

The Chairman.  Good morning.  The Full Committee Hearing of the 
House of Veterans' Affairs Committee, date February 15th, 2006, 
will come to order. 

Today we will hear testimony from Veterans and Military Service 
Organizations regarding their recent resolutions and their 
legislative proposals for fiscal year 2007. 


Last week, we heard testimony of the 2007 budget request from 
Secretary of Veterans' Affairs Jim Nicholson and the Independent 
Budget, along with others such as The American Legion and the 
Vietnam Veterans of America. 


It was a constructive hearing, and I look forward to an exchange 
today on issues of shared concern, quality health care for our 
veterans enrolled in the system, timely and accurate claims 
decisions, seamless transition between DOD and VA, and helping 
veterans live full, healthy lives, which take advantage of 
opportunities offered by a nation they defended. 

Last week, I announced my support for modernizing the GI Bill, and 
I look forward to working with VSOs and MSOs on this initiative. 


Before we begin, I extend on behalf of the Committee's members and 
staff our appreciation for the enduring contributions made by the 
membership and the organizations that are before us the next few 
days including also beyond your members, your auxiliaries and 
their families. 

As this Committee develops its views and estimates for the 
submission of the budget to the Budget Committee, your testimony 
today and tomorrow is invaluable.  Your thoughts will be integral 
to the tough decisions we must make in the week ahead. 

As Chairman of the Committee, the top three priorities remain caring 
for veterans who have service-connected disabilities, those with 
special needs and the indigent, our core veterans, and ensuring a 
seamless transition from military service to the VA, providing 
veterans every opportunity to live full and healthy lives. 


These are my priorities and I look forward to hearing yours.  In our 
exchange, we must also ask difficult questions, question old 
assumptions, and assume that we can do better. 


I would like to recognize Mr. Evans.  Mr. Evans has a prepared 
statement for which he has submitted for the record, and asks 
unaminous consent that it be submitted for the record.  Hearing 
no objection, so ordered. 


[The statement of Lane Evans appears on p.  ]



**********INSERT**********


The Chairman.  The first panel will please come forward.


Today we will hear testimony first from Mr. Steve Robertson 
representing The American Legion.  Steve was named the Director 
of the National Legislative Division in May of 1993.  He served 
as a military policeman in Washington, D.C., the Army National 
Guard, and was activated on January 1991 during the Persian Gulf 
War and served from February to June in Saudi Arabia. 


Each year, The American Legion sponsors several citizenship programs 
such and boys and girls state programs, which provide valuable 
leadership skills to our nation's youth.  And Steve and the Committee 
received additional information and requested to have submitted for 
the record.  It was last week's hearing statement from the National 
Commander. 
 

I will allow you to do that during your statement. 


Also testifying next is we will have Dennis Cullinan, a veteran of 
the United States Navy.  He became a Legislative Director for the 
VFW on August 1997. 


We look forward to your testimony on this agenda. 


I want to commend the VFW for your work on Operation Uplink, a 
program to provide free phone cards to military personnel and 
hospitalized veterans.  The VFW will again be cosponsoring the 
Annual National Veterans Golden Age Games. 


We also have next is Mr. Jim King who has been serving as the 
National Executive Director of AMVETS since May of 2002.  He is 
a ten-year veteran of the United States Marine Corps.  He joined 
AMVETS in 1969 after serving two combat tours in Vietnam, the 
3rd Marine Division. 


I want to thank the organization for providing a large cadre of 
Veterans Service officers who assist our nation's veterans. 


We also have Joe Violante, the Legislative Director for the Disabled 
American Veterans.  He is a former Marine, a disabled Vietnam 
veteran.  He has been serving as the Legislative Director for DAV 
since July of 1997.  And DAV has been very active in the disabled 
sports community and sponsored the Annual National Disabled 
Veterans Winter Sports Clinic in Snow Mass, Colorado. 


I will now turn to Mr. Robertson.  You are now recognized for ten 
minutes. 


STATEMENTS OF STEVE ROBERTSON, LEGISLATIVE DIRECTOR, THE AMERICAN 
LEGION; ACCOMPANIED BY DENNIS CULLINAN, LEGISLATIVE DIRECTOR, 
VETERANS OF FOREIGN WARS OF THE UNITED STATES; JIM KING, NATIONAL 
EXECUTIVE DIRECTOR, AMERICAN VETERANS; JOSEPH VIOLANTE, LEGISLATIVE 
DIRECTOR, DISABLED AMERICAN VETERANS 


Mr. Robertson.  Thank you, Mr. Chairman.  I ask that the National 
Commander's written testimony be submitted into the record in full. 


The Chairman.  Hearing no objection, so ordered. 


[The attachment appears on pg.  ] 

**********Committee INSERT**********


STATEMENT OF STEVE ROBERTSON



Mr. Robertson.  Thank you for inviting The American Legion to offer 
its legislative agenda for the issues under the Committee's 
jurisdiction.  National Commander Tom Bock was unable to be in 
Washington to present this testimony, but he extends his greetings to 
you and your colleagues. 


The American Legion has a proud tradition of advocating on behalf of 
American's veterans and this testimony reflects the continued 
commitment to ensuring VA is capable of meeting its obligation to 
all of America's veterans and their families. 


As Congress begins the second session, The American Legion is 
prepared to work with you and your colleagues to address a number 
of challenges facing the VA and America's veterans. 


Just over 24 million Americans have earned the title veteran.  They 
join a long list of citizens, soldiers, sailors, airmen, Marines, 
and Coast Guard who have honorably served this nation.  In return, 
a grateful nation has set aside certain earned benefits in gratitude 
for their personal commitment and individual sacrifice. 


Although veterans represent a small minority of Americans, they 
share a common bond that links them together forever.  That bond is 
honorable military service in times of war and conflict as well as 
in peace. 


The decision to enlist in the armed forces is made freely.  However, 
the Department of Defense, not the individual, determines when and 
where service is prepared.  Whether in a missile launch control 
facility beneath the grounds of the Dakotas or on the sands of 
southwest Asia, military service is the profession of national 
defense. 


Each generation of veterans have certain benefits that they are 
eligible to receive.  Generations of veterans have successfully used 
their educational benefits to achieve their chosen occupational 
goal.  The current Montgomery GI Bill needs modernization to match 
the needs of today's Armed Forces. 
 

Our veterans have also become homeowners by using the Home Loan 
Program.  The American Legion continues to support this part of the 
American dream, but believes this program, too, should receive a 
thorough review. 


Millions of veterans have made their final muster among their 
comrades in veteran cemeteries across the nation.  The American 
Legion deeply appreciates the efforts made to maintain and preserve 
that hallowed grounds. 


The nation has also recognized and cared for those that have suffered 
physical and mental scars while on active duty.  In efforts to make 
them whole again, some veterans are awarded disability ratings for 
medical conditions incurred or aggravated while in service to 
America.  The American Legion remains committed to the improvements 
in VBA to dramatically improve timeliness and accuracy of claims 
decisions. 


Mr. Chairman, The American Legion is pleased with the well-documented 
accomplishments and rave reviews VA's VHA continues to receive not 
just from the veterans community but from the health care industry.  
The very fact that over 200,000 new priority group eight veterans 
were turned away clearly indicates that VA health care is becoming 
the best health care option for more and more veterans. 


The question facing The American Legion and this Congress is how do 
we meet the increased demand for access with enhanced resources?  The 
American Legion looks at three obvious areas:  Improved annual 
Federal appropriation process; improved third-party collections; 
and identify new revenue streams. 


The American Legion has joined with other veterans' organizations 
represented here today to form the partnership for veterans' health 
care budget reform. 


Mr. Chairman, last year, you and your colleagues clearly identified 
the problem.  The model and methodology in funding the VA medical 
care system is absolutely critical.  We must get it right not just 
this year but every year.  Funding for VA medical care is an issue 
of fairness. 


Repeatedly, members of Congress across the political spectrum seem 
to agree that the Federal budget should reflect the nation's 
priorities.  Since over half of the Federal budget consists of 
mandatory spending, the question must be asked, which of these 
mandatory programs are greater national priorities than providing 
timely access to quality medical care to service-connected disabled 
veterans, especially those with combat-related medical conditions? 


For many of these veterans, VA is their primary life-support system. 
 Who among us is willing to tell a young servicemember recovering 
from serious combat wounds at Walter Reed or Bethesda that if he or 
she were Medicare eligible, his or her health care would be 
guaranteed?  But since they are just service-connected disabled 
veterans, their health care is based upon existing appropriations. 


The partnership believes there is a better way to assure adequate 
funding to meet VA's medical care mission.  That is clearly 
achievable rather than questionable from year to year.  Yet, there 
are other veterans that see VA as their best health care option as 
well.  The American Legion believes we must find the answer to their 
question, why can't I enroll. 


Some of these veterans are combat veterans that return from battle 
to their family and friends with no serious medical problems.  These 
are veterans that are prohibited from enrollment simply because 
they are high-income veterans.  Even if the veterans have other 
public or private health care coverage that could or would reimburse 
VA for the care and treatment, they still cannot enroll.  This simply 
doesn't make sense.  Who drives away paying customers? 


The American Legion has expressed concern over the medical care 
collection fund for several years.  The obvious elephant in the room 
are those enrolled veterans that identify Medicare as their primary 
health care provider.  These veterans may have Part A, Part B, 
and supplemental coverage. 


The American Legion supports authorizing VA to collect third-party 
reimbursements from Medicare for treatment of allowable 
non-service-connected medical conditions.  Mr. Chairman, currently 
VA is prohibited from these third-party collections even though half 
of the enrolled patient population are Medicare-eligible veterans.  
This is a statute passed by Congress; therefore, it can be amended 
or repealed by Congress. 


In addition, VA does not receive any credit for the amount of 
mandatory appropriations VA saves the Federal Government by treating 
Medicare-eligible veterans without receiving these reimbursements.  
According to Title 38 of the United States Code, Medicare 
eligibility is not an entitlement to VA health care. 


This Congress should give serious consideration to allowing VA to 
collect third-party reimbursements just like the Department of 
Health and Human Services and the Department of Defense.  This 
Committee should take action to address those veterans with no 
private health coverage and those veterans with private health 
care insurance that does not reimburse VA. 


Congress should allow VA to offer affordable, premium-based health 
care benefit packages similar to TRICARE, Medicare for those 
enrolled veterans with no health care coverage.  These veterans 
would have a choice of health benefit package that best meets their 
individual health care needs and would make appropriate co-payments 
in addition to the monthly premiums.  VA would in turn guarantee 
access standards for these veterans. 


In addition, VA should notify enrolled veterans with third-party 
insurance companies when their insurers refuse to reimburse the VA. 


VA medical care is not an entitlement for all veterans.  Clearly 
these veterans wanting to enroll in the VA health care system will 
have to make co-payments and bring their public and private 
third-party collections with them. 


The American Legion continues to work with this Committee to ensure 
that VA is indeed capable of providing earned benefits to those 
veterans that have served with honor, dignity, and courage.  With 
young American servicemembers continuing to answer the nation's call 
around the world, we must, more than ever, work together to honor 
their sacrifices. 


As veterans of OEF and OIF return home, they are turning to VA not 
only for health care but for assistance in transitioning back to the 
civilian world. 


The American Legion has growing concerns of the recent changes to 
the DOL's VETS Program and are not sure that it is working in the 
best interest of today's underemployed veterans and unemployed 
veterans. 


Since every state is now responsible for developing the VETS Program 
for that state, we can end up with 50 different programs with some 
performing better than others.  That is a formula for disaster.  
Every veteran deserves the best services for DOL regardless of 
where they reside. 


Over the past four years, The American Legion has carefully followed 
the progress in the CARES process.  We have participated in every 
stage of the process by gathering information on VA medical centers 
throughout the country and to make certain medical care services 
were not ignored in an attempt to downsize the system.  We did 
this with the help of legionnaires both at the department and post 
level who care about the quality and timeliness of medical care 
delivery. 


As the implementation process of the CARES decision continues, The 
American Legion will remain vigilant to assure that veterans are 
not deprived of their earned benefits.  No facility should be 
closed for services before new services are provided and functioning 
in place. 


Further, we must continue to oversight the integration of the CARES 
process into the strategic planning process.  The American Legion 
continues to monitor the progress of the 18 sites selected for 
additional analysis and study. 


Mr. Chairman, The American Legion is committed to ensuring VA carries 
its historic and statutory responsibilities to provide medical care 
and benefits to those who have selflessly and honorably served this 
nation. 


There are currently 2.6 million veterans receiving disability 
compensation, and VA reports that that number will continue to 
increase.  While the number of claims and appeals has continued to 
increase, the FTE levels have decreased. 


Because VBA has lost so much of its institutional knowledge base 
over the past four years due to retirement of many of its 
30-plus-year employees, staffing at most regional offices is now 
mostly comprised of trainees and individuals with less than five 
years of experience.  The bottom line is that VBA must have enough 
people to handle the ever-increasing workload. 


Over the past three years, The American Legion's System Worth Saving 
Task Force has completed visits to every VA medical facility.  Our 
site visits revealed critical shortages in funding in the VA health 
care system. 


A number of facilities reported having to convert capital investment 
dollars from health care dollars in order to keep the service demand 
of the current veteran patient population.  The shifting of these 
funds has resulted in delays of needed infrastructure repairs, 
resulting in huge maintenance backlogs at facilities. 


Shuffling funds within a weak budget is no way to run a health care 
system designed to take care of the servicemembers wounded both of 
mind and body while in defense of this country. 


America's sense of invulnerability has changed forever by the 
newly-emerging global threat.  We need to have a strong, 
forward-thinking defense and we need to have a VA system that is 
also forward thinking. 


With that dedication comes a national obligation to those Americans 
who served in the Armed Forces.  Together we will work to ensure a 
strong, forward-thinking VA that will be able to provide earned 
benefits to the new generations of veterans.  The brave men and 
women who serve in the Armed Forces in Iraq and Afghanistan and 
throughout the world deserve no less. 


The American Legion looks forward to working with you and your 
colleagues in the second session.  Thank you very much for accepting 
our views and comments. 


The Chairman.  Thank you, Mr. Robertson. 


[The statement of Steve Robertson appears on p.  ] 



**********INSERT**********


The Chairman.  Mr. Cullinan, VFW.


Mr. Cullinan.  Thank you.


I would ask that my written statement be made part of the record. 


The Chairman.  Hearing no objection, so ordered. 


STATEMENT OF DENNIS CULLINAN 



Mr. Cullinan.  Chairman Buyer, Ranking Member Evans, Vice Chairman 
Bilirakis, and distinguished members of this Committee, I thank you 
for inviting the Veterans of Foreign Wars of the U.S. to testify 
today. 


With thousands of men and women toiling in the deserts of Iraq and 
the mountains of Afghanistan, the price of war is visible on our TV 
screens on a nightly basis.  But war has long-lasting effects, many 
of which must be taken care of long after the last shots are fired. 


Today's soldiers are tomorrow's veterans.  And just as this nation is 
renewing its commitment to care for those in uniform today, so must 
it live up to its obligation to care for those who have worn the 
uniform before. 


Last year's VA funding problem is something we never care to see 
repeated again.  The errors which resulted in a health care system 
on the verge of bankruptcy are inexcusable.  We thank you, this 
Committee and this Congress, in correcting this problem.  We welcome 
continued oversight of the VA's budget methodology to ensure that 
this dilemma does not happen in the future. 


With respect to the fiscal year 2007 budget, we were pleased to see 
the Administration's request, and we think that it is an excellent 
starting point.  It appropriates 31.4 billion for medical care, 
which is nearly 2.7 billion more than the total amount for fiscal 
year 2006.  Total discretionary funding is up by 3.4 billion.  We 
view this as an acknowledgement and a commitment to this nation's 
obligation to our veterans. 


The VFW, however, strongly opposes some of the enrollment fees and 
co-payment increases to raise money in lieu of appropriated dollars. 
 These fees would be a great burden on a large number of the 
veterans.  VA has even admitted that it would force many thousands 
of veterans to decline to receive their earned health care through 
VA.  This is unacceptable to the VFW. 


We also feel that VA's collection goals are overly ambitious.  This 
budget is relying on 2.8 billion in collections for 2007 when VA, 
despite improvements in their collection processes, has only 
collected $2 billion in the current fiscal year in a projected 
basis.  VA has never been able to meet their collection targets 
and we fear that next year will be no exception. 


Turning to the Veterans Benefit Administration, we remain greatly 
concerned with VBA's ability to process compensation and pension 
claims in a timely and accurate manner.  These claims directly 
affect the economic well-being of our nation's sick and disabled 
veterans as well as their dependents.  These payments help to make 
a veteran whole and help him or her to provide for their family. 


Unfortunately, the claims backlog has swelled to unreasonable 
lengths.  On average, it takes VBA 171 days to process a claim, 
nearly six months.  VA projects that this will increase to 180 
days during fiscal year 2007.  The lengthy delays represent 
real-world hardship for veterans waiting for money for food and 
for shelter and for their families. 


Not only does it take longer for a claim, when VBA decides a claim, 
it is frequently wrong.  VBA has a major error in 15 percent of the 
claims they process.  These are errors that are adversely affecting 
veterans. 


In an attempt to make superficial improvements in the claims backlog 
and because of inexperienced staff, more errors are being made, 
further lengthening the time veterans must wait through the appeals 
process, or completely preventing a veteran from receiving their 
disability compensation entirely. 

VBA must get better.  And with the inexcusable proposal contained in 
the budget to cut 149 FTE in compensation direct labor, there is 
not much chance for VBA to make meaningful improvements next year. 


We must also be mindful of those servicemembers transitioning from 
active duty to veteran status.  It is inexcusable that, after many 
years of trying, VA and DOD are still unable to transfer medical 
information. 


We must continue to work towards a truly seamless transition, and 
we appreciate your strong interest in this area, Mr. Chairman.  This 
will serve to lessen delays for disabled veterans and will improve 
the accuracy of VA's claims with improved and timelier medical 
data. 
 

To help aid the transition back into civilian life, we also support 
the strengthening of the Montgomery GI Bill.  And we note and applaud 
your stated intention to work in this area. 
 

The Montgomery GI Bill has allowed thousands of men and women to 
educate themselves and take their places as leaders in this country. 
It remains the VFW's goal to have a GI Bill for the 21st Century, 
which, like the World War II model, would pay for the full cost of 
attendance at any school to which a veteran chooses and is accepted. 


Further, we would like to see the $1,200 buy-in for the Montgomery 
GI Bill eligibility eliminated.  No other form of Federal student 
aid requires payments by individuals. 


We would also like to see the benefit provided to the Guard and 
Reserve strengthened.  Over the last several years, the active duty 
benefit has dramatically increased.  And although we would like to 
see meaningful improvements in that, it is also important that the 
Guard and Reserve portion keep pace.  These were not increased in 
proportion  with the active duty benefit, and we would like to 
see them reproportioned with the active duty benefit. 


There are several other issues, which, while not under the purview 
of this Committee, are important to our members.  First, we would 
urge Congress to approve full and immediate concurrent receipt for 
all disabled military retirees to eliminate the offset of retired 
pay and disability compensation. 


Mr. Bilirakis, we certainly applaud everything that you have done in 
this area. 


[Applause.] 
 

Mr. Cullinan.  We would also like to see improvements made to the 
benefits provided to our men and women currently in uniform.  We 
support pay compatibility for those in uniform and improved access 
to quality housing including communities with full support for 
families and children.
 

We also look for improved health care coverage options for all 
members of the Guard and Reserves.  We have made great strides in 
this area over the past few years, but there is still room for 
improvement as we attempt to acknowledge the Reserve component's 
changing and ever-increasingly important role. 


We thank you for allowing us to testify today and we look forward to 
working with you and the members of this Committee to improve 
veterans' benefits and health care.  I would be happy to respond 
to any questions you may have.  Thank you. 
 

The Chairman.  Thank you very much. 
 

[The Statement of Dennis Cullinan appears on p.  ]
 


**********INSERT**********


The Chairman.  Mr. King, AMVETS, you are now recognized.
 

Mr. King.  Thank you.  I ask that my written statement be entered 
into the record. 
 

The Chairman.  Hearing no objection, so ordered.


STATEMENT OF JIM KING 


Mr. King.  Thank you, Chairman Buyer, Ranking Member Evans, 
Vice Chairman Bilirakis, distinguished members of the Committee. 


I come before you today to talk about AMVETS' legislative agenda, 
views, and priorities.  Not surprisingly, veterans' health care is 
at the top of our list. 


Once again, a new generation of Americans are deployed around the 
world.  Our soldiers are doing everything we ask of them and much 
more.  They fight to conquer the evil forces who would rule by 
fear and they help spread freedom and democracy around the world. 
 

About 103,000 soldiers returning home are in need of health care 
services for physical and psychological traumas of war.  Seventeen 
percent of them have been diagnosed with PTSD.  These are the hidden 
scars the young men and women who serve in combat are left with.  
Before you think about underfunding VA health care, go and visit 
these injured soldiers, talk with them and listen to their stories. 
 

We are spending close to $2 billion a week for operations overseas, 
yet we are trying to nickel and dime veterans' health care here at 
home.  Nobody is saying we are spending too much for our national 
defense.  Nobody is asking us to reduce the defense or VA budget.  
I believe there is enough money to properly equip the military and 
take care of those who serve. 
 

Looking at the VA budget, AMVETS recommends Congress provide $32.4 
billion for veterans' health care, which is an increase of 3.7 
billion over last year and approximately one billion over the 
Administration's request without collections. 


AMVETS is disappointed that once again there is a proposal to 
increase prescription co-pays and create an annual enrollment 
fee.  These new fees will have a dramatic impact on veterans, 
causing over one million to drop out of the system.  The premium 
has already been paid by service to this country.  AMVETS 
disagrees with this policy and we ask Congress to reject it. 
 
It is apparent that the reason for these policies is to generate 
revenue, save money, and reduce discretionary spending.  Year after 
year, we are told that the budget recommended by the Administration, 
the majorities in the House and the Senate, are adequate.  We know 
this is not true. 
 

Despite the Independent Budget recommendations last year, Congress 
relied on what the VA said they needed.  We were not surprised when 
the VA finally admitted they were well over a billion dollars short. 
I ask that you listen and pay attention to us this fiscal year.  We 
were right then and we are right now. 
 

Frankly, the current system of funding veterans' health care is 
broken.  It does not work.  AMVETS will continue to pursue 
legislation to assure dependable and stable funding of the VA.  
Basically what we seek is assured funding.


Under the current process, VA health care competes with other 
priorities.  Shifting to a mandatory funding system will provide 
a stable and timely system of funding for the VA.  We ask that you 
seriously take a look at this idea.  It may be hard for Congress to 
swallow, but once health care funding matches the actual cost of 
care, the VA can truly fulfill its mission. 


AMVETS is very concerned about a DOD proposal to double or triple 
TRICARE fees.  DOD believes these increases will save money by 
shifting 24 percent of users away from retail outlets, cause 600,000 
current enrollees to exit TRICARE by 2011.  These retired soldiers, 
sailors, Marines, and airmen put their lives on the line for our 
national defense.  We should not force them out of the health care 
system that covers them and their families. 
 

AMVETS believes there is no greater responsibility of DOD and VA 
than to properly assist returning soldiers.  In order to provide a 
seamless transition, AMVETS recommends that the veterans' basic 
service information be made available electronically.  We ask that 
you explore ways to make this possible.  AMVETS encourages you to 
take a look at the Transition Assistance Program. 


The Department of Defense estimates that 68 percent of separating 
servicemembers attend the full TAP seminars, but only 35 percent of 
the Reserve components attend.  Countless numbers of National Guard 
and Reserve troops return from the war only to encounter difficulties 
 with their federal and civilian employment.  AMVETS encourages 
Congress to explore ways to make TAP participation mandatory for 
active duty and Guard and Reserves. 


While speaking about returning troops, we ask that you continue to 
adequately fund the DVOP and LVER Program.  AMVETS also asks that 
you keep a close eye on legislative attempts to consolidate and 
block grant the DVOP and LVER.  It would be a grave error to 
downgrade employment services that specifically help troops. 


For decades DVOPs and LVERs have been the cornerstone of employment 
services for veterans.  We believe it is important for states to 
continue to be required to hire veterans for these positions. 


A practical example of just how important it is for veterans to 
advocate for veterans can be found within our own organization.  
The AMVETS Department of Ohio developed and fully operates a 
career center designed to assist veterans in their career needs. 
 

The AMVETS career center provides a range of services to help 
veterans find employment or assist them in refreshing and upgrading 
their skills.  This is done at no cost to the veteran.  The center 
also provides services to non-veterans from the community for a 
fee of $50.00. 


AMVETS is very concerned about the growing backlog of claims.  
Veterans Benefits Administration reports that 117,766 claims for 
benefits have been pending for more than 180 days.  That's 19,581 
more claims than this time last year.  There are, of course, reasons 
for that.  Budgets cannot stretch to cover the needs, experienced 
employees retiring and being replaced by novices requiring 
training, and, of course, the Global War on Terrorism. 


How can VA adequately process disability claims with the funds and 
staffing levels they have been given?  The answer is they cannot.  
If you cannot get them the funding they need to fully staff, full 
man all VBA regional offices, then the VA will never be able to 
do its job to the best of its ability. 


AMVETS supports legislation that would award a Military Service 
Medal to those who served during the Cold War era.  We are 
disappointed that the Cold War Victory Medal did not survive the 
House-Senate conference on the fiscal year 2006 Defense Authorization 
Act.  This nation would certainly demonstrate its great respect for 
these veterans by creating the Cold War Victory Medal. 


AMVETS will not waiver in its efforts to protect the flag from 
being dishonored.  The flag stands for all that is good about our 
country.  The flag is placed over the coffins of those who died so 
as others might live.  It covers the bodies of first-responders who 
gave their lives in the line of duty and it flies at half mast in 
recognition of honorable Americans.  It is much more than a piece 
of cloth.  It stands for independence, union, and the values on 
which it was established.  We believe our children should be 
raised as patriots, full of respect for the flag and the 
constitutional values it represents. 


On this issue, we recognize and greatly appreciate the members of 
the House who helped assure overwhelming passage of the Flag 
Protection Amendment. 


I would be remiss if I did not acknowledge the fine work VA nurses 
provide to wounded veterans.  VA nurses care for over five million 
veterans nationwide.  The VHA has the largest nursing workforce in 
the country with nearly 59,000 registered nurses, licensed practical 
nurses, and other nursing personnel. 


But VA staffing levels are so precious that even the loss of one 
nurse can result in a critical staffing shortage.  AMVETS encourages 
this Committee to actively address the retention and recruitment of 
VA nurses. 


We also want the fullest possible accounting of our servicemen, 
prisoners of war, and missing in action.  No amount of effort or 
commitment can compensate for the loss of our service personnel, 
but the endeavor honors the value of an American's service to his 
country. 


Mr. Chairman, great decisions and challenges await us in the months 
ahead.  The membership of AMVETS looks forward to working with you 
to establish a clear policy of national recognition for those who 
serve.  We have much to do, but we are encouraged in knowing that 
our work will help the heroes who have borne to battle and lived 
to tell about it. 


This concludes my testimony.  I appreciate the opportunity to appear 
before you today.  Thank you for your support of veterans. 


The Chairman.  Thank you, Mr. King. 


[The statement of Jim King appears on p.  ] 



**********INSERT**********


The Chairman.  Mr. Violante, DVA. 


Mr. Violante.  Thank you, Mr. Chairman, members of the Committee.  
I ask that my written statement be entered into the record. 


The Chairman.  Hearing no objections, so ordered. 


STATEMENT OF JOSEPH VIOLANTE 


Mr. Violante.  On behalf of the more than 1.5 million members of the 
Disabled American Veterans and its auxiliary, I am pleased to discuss 
the agenda of our nation's wartime disabled veterans and their 
families. 


Mr. Chairman, I must state that DAV and its members are not pleased 
our joint hearings have been cancelled.  It is our sincere desire 
that you would reconsider your decision and again allow us the 
opportunity to appear before a joint hearing of the Veterans' 
Affairs Committees. 


Mr. Chairman, today, America's sons and daughters are serving our 
nation in our armed services, protecting our freedoms here and 
abroad.  Not since the Vietnam War has our nation had to deal 
with such a significant number of severely disabled wartime 
casualties.  Although the medical care and services they receive 
from the military is excellent, I am concerned about their ability 
to receive timely quality care from the VA in the future. 


Since its inception, the DAV looked to protect the interests of 
all disabled veterans.  The purpose those disabled veterans set 
for themselves in 1921 remain the same today:  Building better 
lives for our nation's disabled veterans and their families. 


We must be farsighted to ensure that VA remains a viable provider 
of veterans' benefits and services for our newest generation of 
disabled veterans.  These brave young men and women will need 
the full continuum of VA services well into the latter part of 
this century. 


In March 2005, then DAV National Commander Jim Sursely expressed 
our concerns about the VA's ability to care for our nation's 
veterans.  And he reported news articles from around the country 
about shortfalls in health care funding to this Committee and the 
Senate Veterans' Affairs Committee.  Unfortunately, his concerns 
fell mostly on deaf ears. 


Although delayed, Congress finally provided supplemental funding 
for VA.  However, we are hearing from the field today that budget 
woes are still present.  The hiring freeze is still in place.  A 
review of the recently-submitted budget demonstrates employee levels 
in health care for fiscal year 2005 and 2006 remain unchanged. 


It is our understanding that VA medical facilities are required to 
pay back a substantial portion of the money they received from 
Central Office for the funding shortfalls for last year.  Some 
facilities are reporting that the increase they received in fiscal 
year 2006 will help to pay for salary increases only.  Others 
report continued deficits and backlogs.  Some are actually reducing 
non-VA medical care.  And some medical facilities are questioning 
how they will make it through this year. 


Mr. Chairman, I can assure you that the DAV, along with the members 
of the Independent Budget, does not ask for more money just to help 
VA build a large fiefdom.  Our recommendations in the Independent 
Budget are not only based on discussions with the bean counters and 
program directors at VA, but also on conversations with VA employees 
who are on the front line of providing services to veterans.  We 
also receive information from our members and employees about the 
state of affairs at VA facilities nationwide. 


As called for in the President's budget submission, medical services 
for veterans would rise from 22.5 billion to 24.7 billion or a nine 
percent increase.  The DAV and other veteran service organizations 
are calling on Congress to provide about $26 billion for veterans' 
medical services, almost 1.3 billion more than the President has 
requested.  And we are united in our opposition to imposing new 
fees and higher co-payments on certain veterans who choose to get 
their care from VA. 


The Health Care Eligibility Reform Act of 1996 authorized eligible 
veterans access to VA health care.  More importantly, it authorized 
VA to provide a full continuum of care to veterans, thereby greatly 
improving the quality of VA health care.  Today that quality of 
health care is recognized worldwide. 


The improvement in VA health care is directly due to the changes 
brought about by the Reform Act.  The change has created a more 
effective and efficient health care system.  Progress made as a 
result of these changes has made the VA a world leader in the 
health care industry.  VA consistently sets the benchmark for 
patient satisfaction in inpatient and outpatient services. 


We firmly believe this to be true and we look forward to your 
hearing to retrospectively review this Act.  To guarantee the 
viability of the VA health care system, it is imperative that the 
funding be guaranteed with mandatory funding and that all disabled 
veterans and other enrolled veterans be able to access the system 
in a timely manner.  By including all eligible and enrolled 
veterans in a guaranteed funding proposal, the VA system and 
specialized programs will be protected now and into the future.  
To exclude a large segment of currently-eligible and enrolled 
veterans from the system, however, could undermine VA's ability 
to provide a full continuum of care to disabled veterans in the 
future. 


We believe funding for veterans' benefits and health care services 
should be a top priority of our government as a continuing cost of 
our national defense.  As a nation, we must be willing to bear the 
cost of providing special benefits to such a unique group, those 
men and women who are willing on behalf of all Americans to serve 
to preserve our cherished freedoms and democratic values. 


To assure the veterans' medical care is maintained is a top 
government priority.  Its funding again should be mandatory to 
remove it from competition with politically popular but less 
meritorious projects and programs.  With guaranteed funding, 
VA can strategically plan for the future to optimize its assets, 
achieve greater efficiency, and realize long-term savings. 


Mr. Chairman, I will now focus on the benefit side of VA.  A core 
mission of the VA is the provision of benefits to relieve the 
economic effects of disability upon veterans and their families.  
Disability benefits are critical and providing for our disabled 
veterans should always be a top priority of our government. 


Let me now turn to the President's budget request under the general 
operating expenses account.  We are pleased to see the President 
add more staffing in Education Benefits Program and Vocational 
and Rehabilitation and Employment Program, though these requests 
still fall short of what is necessary. 


At the same time, we are perplexed by the budget recommendations to 
reduce direct program staffing for compensation claims processing, 
an area with the most critical and widely-acknowledged need for 
additional adjudicators. 


For VR&E, the President requests 1,255 FTE.  The IB recommends 1,375 
FTE.  Based on the adverse and long-standing problems from chronic 
under-staffing in compensation and pension services, compounded by 
anticipated increased claims volume, the IB recommends 10,820 FTE 
for C&P service.  The President requests 9,445 FTE, which would 
reduce direct program FTE for handling compensation claims by 
149. 


The budget concedes that although unacceptable claims backlog should 
grow even larger in 2006 and 2007, we urge the Committee to recommend 
adequate staffing for C&P service. 


Mr. Chairman, DAV's 2006 mandates cover a broad spectrum of VA 
programs and services and have been made available to your staff.  
With realization that we shall have the opportunity to more fully 
address those resolutions during hearings and personally with your 
staff, I shall briefly comment upon a few of them at this time. 


Accordingly, in addition to correcting the budget process for VA 
health care and the claims backlogs at VBA, the members of the DAV 
call upon this Committee to increase the face value for 
service-disabled veterans' insurance, authorize VA to revisit its 
premium schedule for SDVI to reflect current mortality tables, 
extend eligibility for Veterans Mortgage Life Insurance to 
service-connected veterans rated permanently and totally disabled, 
support additional increases in grants for automobiles and 
specially-adaptive housing and provide for automatic annual 
adjustments based on an increase in the cost of living, support 
legislation to remove the prohibition against concurrent receipt 
of military longevity retirement pay and VA disability compensation 
for all affected veterans, support legislation to allow all veterans 
to recover amounts withheld as tax on disability severance pay, 
support an expansion of POW presumptions, provide educational 
benefits for dependents of service-connected veterans rated 80 
percent or more disabled. 


We are also in support of House Resolution 1951 to provide for the 
minting of a coin by the Treasury to commemorate disabled veterans 
and to contribute the surcharge on the coins to the funds for 
construction of the American Veterans Disabled for Life Memorial. 


Mr. Chairman, this completes my testimony.  I will be happy to answer 
any and all questions the Committee might have.  Thank you. 

[The statement of Joseph Violante appears on p.  ] 



**********INSERT**********


The Chairman.  I have two quick comments and then I am going to yield 
to Mr. Bilirakis for questions. 


First of all, today, the Katrina Committee will vote on its report and 
part of the factual basis of pre-landfall, post-landfall, the 
evacuations, search and rescue and response.  The Veterans Service 
Organizations played a part in all this. 


And so on behalf of this Committee, please extend to the leadership 
our grateful appreciation for many of your members and how you 
reached out and helped.  It defines a lot about who you are.  It 
helps define the character of a nation.  So please extend that.  
And I will make those comments later this afternoon. 


Also, to put on your radar screen, the Chief of the Army Reserve had 
called up individuals out of the Individual Ready Reserve.  Some of 
these individuals did not report for duty.  Now, there is a problem 
coming.  I am putting this on your radar screen for you to be aware 
and to watch this one as it comes. 


I think there is some uncomfortableness the Pentagon to go have them 
arrested.  I do not think they want a repeat of the Vietnam era and 
people running to Canada and that kind of thing.  And as for these 
individuals, the commanders will have to make decisions on what to 
do with these individuals who do not report for duty and have not 
reported for duty.  I think there are under a hundred of them. 


And so I want to bring it to your attention because if they choose 
an administrative discharge proceedings, if these individuals who 
chose not to show up for duty end up with a general discharge, they 
could be entitled to veterans' benefits and would be in a similar 
capacity as those who were a combat veteran. 


So I am putting it on your radar screen.  I want you to go back and 
share this one in your discussions with your legislative Committees. 
 And if you can please let us know your positions, and I want to 
convey that then onto the Pentagon. 


Hopefully, you know, they are giving the best counsel to these 
commanders that these individuals should be discharged at a minimum 
of an administrative discharge under other than honorable conditions 
and then that would take care of the benefit side of the house.  
But I will let you go back and chew on that one. 


Mr. Bilirakis. 


Mr. Bilirakis.  Thank you, Mr. Chairman. 


You know, regarding that particular point, many people have received 
a general discharge over the years going way back.  It was never 
considered to be dishonorable of that nature.  I mean, sometimes it 
was just being done on a person -- I do not know -- who was going 
to be discharged prior to the expiration of their term of service.  
But it was always considered to be just as honorable as any discharge 
that would have HO, NOR, et cetera, on it. 


So it is a very significant point that you make, and I would hope 
that you gentlemen would really study that and take a position on 
it and let us know how you feel about it. 


I do want to thank you on behalf of the Committee and on behalf of 
you and all of the people in the audience, many of whom who have 
traveled up here to this cold weather because of the role that you 
play. 


I know I talked to a few of you before we started the hearing and 
made the comment that an awful lot of people back there kind of take 
you for granted and do not realize the role that you really play.  
They think that some of these benefits that they get, whether they 
are adequate or not, is beside the point for the purposes of what 
my statement is.  But they think a lot of these benefits come from 
man or from heaven and they do not realize the hard work that you 
all put into it.  So I want to commend you. 


I did want to commend particularly Mr. King for his emphasis on a 
Flag Protection Amendment.  Whereas all of the issues are very 
important, I am not sure that too many of them are more important 
than that one because it is a foundational type of thing. 


Retention of nurses, I think you know, that the Committee has 
really put a lot of emphasis on that over the years.  And, in fact, 
we have a hearing scheduled coming on that.  And as I said, you 
are quite right, Mr. King.  There should be more emphasis even 
placed on that. 


This is my 24th year on the Committee. It has always been basically 
the same regardless of who the President is, who controls the 
Congress, whatever the case may be.  We are talking about the 
Presidents budget as a negotiating tool.  It has always been treated 
as such.  I do not know whether the Administration, which 
Administration it is, treats it as a negotiating tool or not, but 
we always have because we have never accepted it.  And, you know, it 
is a very tough proposition, sometimes tougher than others.  But 
in any case, that is what I have been telling my veterans back home 
and I believe in it very sincerely.  It is just a negotiating tool 
and there is no way that we are going to go along with all aspects 
of the Administration's budget, at least as far as I am concerned. 


There are so many things here and I have been taking notes.  
Seamless transition, by the way, again, I appreciate all of you 
for mentioning that.  That is very significant.  As you know, I 
chair the Oversight Subcommittee.  And seamless transition and 
IT, improving IT, particularly between the VA and the Department 
of Defense, they are a big emphasis on our parts.  And it is a 
shame that we have not really done better in those areas, 
particularly in IT. 


But we have a field visit scheduled, the Washington VA Mdeical Center 
here so that we can sort of study seamless transition up there, 
but with a particular emphasis on IT.  And I would hope that we 
get some members from both sides of the aisle who would go with 
us.  It is scheduled early in the morning.  It should not interfere 
with much of anything else. 


I wanted to ask, regarding claims, we know that if a claim is 
submitted in a relatively decent way -- by that, I mean basically 
the questions are adequate and that sort of thing -- we know that 
if that claim is done well at the outset, it is going to expedite 
the claim through the process.  And we depend an awful lot on the 
service officers, the post service officers for that. 


So I am going to ask you, do you all play a role in communicating 
with your post service officers in terms of -- are they up to date 
in terms of helping people to file claims and that sort of thing? 


Mr. Robertson.  Mr. Chairman, The American Legion, yes, sir, very 
much so.  Matter of fact, we put out publications that give updates 
on decisions by the court, et cetera, et cetera. 


As a matter of fact, in the next week, we are going to be 
starting a Department Service Officer School here in Washington, 
D.C. -- we also have one in the spring in Indianapolis -- to bring 
in folks, to bring them up to speed for their state on, you know, 
different changes in the law and decisions. 


Mr. Bilirakis.  Do you anticipate a good response? 


Mr. Robertson.  Oh, yes, sir.  We always have a packed house. 


Mr. Bilirakis.  Who pays for their expenses? 
 

Mr. Robertson.  Usually it is split between the national 
organization, the state that they come out of.  But there is a 
great deal of emphasis done on that because we recognize -- 


Mr. Bilirakis.  Now, Steve, are we referring now -- I know that 
the VA has service officers in various regions.  That is 
significant obviously.  But I am talking about that post guy, the 
guy down at the post level. 


Mr. Robertson.  Yes, sir.  It is a train-the-trainer type program 
where we are training people to go back and do much broader training 
at the local level.  And, again, we are always available with 
e-mail and telephones to answer any questions that anybody may 
have.  But we stress the importance of the case development to 
the best extent possible. 


Mr. Cullinan.  Mr. Bilirakis, similarly, the VFW, we have ongoing 
training.  We have four major training conferences a year.  That 
is, of course, for the department and district-level service 
officers. 


We also take the train-the-trainer approach in disseminating the 
information to include what is going on in the courts, new 
decisions, changes in the regulations, interpretations of 
regulations, and so forth.  So we pay a lot of attention to 
that. 


Mr. Bilirakis.  What do you think about the quality of the post 
service officer at the post level? 


Mr. Cullinan.  They have come a long way.  I can speak for the VFW.  
Our post service, some are better than others honestly.  But in 
general, we have seen a lot of improvement in their ability to 
assist the veteran processing a claim. 


I forget the exact statistic, but generally speaking, there is a 
significant advantage to a veteran going through a service officer 
to include a post service officer with respect to the eventual 
outcome of the claim including both timeliness and allowance.  
And it is a significant advantage.  So just looking at that alone, 
we have seen the improvement. 


Mr. Bilirakis.  Just maybe a brief comment from the other two, 
Mr. Chairman. 

Mr. King.


Mr. King.  I think we all have pretty much the same thing.  
Generally our post service officers would take a claim and then 
they would turn it over to one of our professional service 
officers either as a department employee or a national employee. 


But the post service officers are trained as to what information 
they need to get from the veteran, set up a POA, and such as that.  
And, yes, we do train-the-trainer training.  I guess we all do that 
same thing. 


Mr. Violante.  Mr. Bilirakis, DAV does basically the same thing.  
We do provide training for our chapter and department service 
officers.  We do provide an incentive for them to send their 
service officers to this training. 


We also require our chapter and department service officers to 
assemble the information, but then provide it to our national 
service officers for them to pursue the claims. 


Mr. Bilirakis.  Just very quickly, what percentage of claims are 
initiated by post service officers?  Do we know that?  Do we have 
any idea?  


Mr. Robertson.  I think that would be very hard to do. 


One other point that I think should be mentioned is we are facing 
the same attrition problems that the VA has.  We have got a lot of 
our older fellows are now passing the torch on to the next 
generation and there is always a learning curve that has to take 
place. 


But I think the technology that we are using to get the information 
out is really paying big dividends.  And we got a lot of kids that 
are coming up as service officers that are computer smart and 
probably are learning very fast. 


Mr. Bilirakis.  Okay, great.  I commend you for all that you are 
doing in that regard.  But I also commend for your attention to that 
because I think we know that it would help the claims processing 
greatly if it initiates in a pretty good fashion. 


Thanks, Mr. Chairman.


The Chairman.  Thank you, Mr. Bilirakis.


Mr. Filner, you are now recognized.


Mr. Filner.  Thank you, Mr. Chairman.


Before I start with questions for the panel, Mr. Chairman, in your 
opening statement, as you have before, you used the words 
"core veterans."  Can you define that for me.  I have not been able 
to find it in any legislation that we have passed.  I would yield 
to you. 


The Chairman.  Well, when I first became a member of The American 
Legion, The American Legion discussed very often about the core 
veterans.  This is not something I made up.  It is something I 
learned from my parents.  My grandfather was a Legion commander.  
My father was a district commander.  My mother was an auxiliary 
president for the State of Indiana. 


Mr. Filner.  So the core veterans are leaders? 


The Chairman.  Would you like to quibble or would you -- 


Mr. Filner.  No.  I want to know what it means because you obviously 
take it very seriously, but I still don't have a definition of it. 


The Chairman.  You know, Mr. Filner, I will allow you just to ask 
questions. 


Mr. Filner.  Well, I guess I think that is why you want to close 
these  hearings to large numbers of people. You gave an eloquent 
introduction to our panel but, I suspect they do not fit into 
your classification, half of them at least, of core veterans.  I 
suspect you are excluding half of the people in this room and in 
the rooms that will fill up later. I do not recall the name of the 
Veterans' Administration being the Core Veterans' Association.  I 
do not remember any of the speeches that talk about core veterans. 


Mr. Bilirakis, you thanked people for rescue efforts in Katrina.  You 
did not say the core veterans.  You were referring to everybody.  
And we did not rescue core people from the floods.  We rescued people 
who were suffering. 


So I do not know what you mean, but it seems to leave a bad situation 
for the Veterans' Administration and for the funding of it.  It 
sounds to me like you are excluding sevens and eights as priorities 
which is 25 percent of who we are serving right now. 


So if that is who you are referring to, just tell us.  If you want to 
force them out, let us be out front and say that because you are 
referring to an awful lot of veterans.  And I do not think the VA, 
or any legislation we pass made that distinction and we should not 
be making the distinction. 


Every time I hear you say that -- I do not know how the people in 
the panel take that, but it seems to me it throws out an awful lot 
of your members from that definition.  So if you would ever want to 
define it for us, Mr. Buyer, I would be happy to hear it. 


To the panel, the Independent Budget, as you defined it today for 
health care, is a billion point three over the Administration 
request.  When we talked to the Secretary last week, we pointed 
out that his request assumed all kinds of things that probably were 
not going to happen, certain legislative proposals, third-party 
collections, management efficiencies which may not exist.  I 
brought up a double counting of a half billion dollars.  VA said 
it was not true, but they have not proved it to us.  Not yet. 


So does your $1.3 billion, should we add all that to the underfunding 
or does your $1.3 include any of that? 


Mr. Violante.  Mr. Filner, our figures do not include any of the 
Administration's anticipated collections or their proposals for the 
enrollment fees or increased co-pays. 


Mr. Filner.  So we are back somewhere between three and four billion 
again. 


But what I get most upset about when I look at what the Administration 
has done,is to realize it is playing with numbers which are playing 
with the lives of our veterans.  If they are double counting, if 
they are putting in numbers because they want to cover a deficit 
when they know legislative proposals are not going to be enacted, 
if they count collections that they know are not going to be 
received, they are deliberately underfunding veterans care.  
That is deliberate and that is irresponsible.  It is atrocious.  
It is beyond the pale of what they should be doing.  To play games 
with the health care of our veterans is just over the top. 


I think they are underfunded by close to four billion dollars, which 
is where we were last year.  And as I hear it, we are already 
experiencing shortfalls in certain VISNS across the nation.  They 
have had a stop hiring or a freeze hiring again, transfer, play 
games with resources all over the place. 


So, you know, you have complimented the Administration of discovering 
this underfunding, but they are back to where they were again, 
exactly where they were, maybe even worse.  Even if you take them 
at face value, they do not add the inflation.  But if you then put 
all these game playings that they are doing, it is up around four 
billion again. 


So we are going to go through these same games and people are going 
to argue, 1.3 is wrong.  It is 1.2 or 3.8  -- and as you pointed 
out, we would not have to play these games with mandatory or assured 
funding.  


And the most important, proposal that we keep ignoring because of 
one member of the majority party, the Chair of the Ways and Means 
Committee, is the Medicare subvention or the use of Medicare as a 
third-party resource.  That, as you pointed out, could be a 
tremendous help to the VA, not the core VA, but the VA. 


I do not know why we do not take that more seriously.  If the 
Chairman of the Ways and Means Committee does not like it, well, 
he does not like it.  But we have all got to say what we think is 
best for our veterans. 
So I think this Committee ought to carry that to the floor of the 
House and have an up and down vote on it. 


The Chairman.  Mr. Miller, you are now recognized. 


Mr. Miller of Florida.  Thank you, Mr. Chairman.  I have a statement 
I would like to enter into the record. 


The Chairman.  Hearing no objection, so ordered. 


[The statement of Jeff Miller appears on p.  ] 



**********INSERT**********


Mr. Miller of Florida.  Mr. Cullinan, in your testimony, you talked 
about VBA's performance for timeliness and the accuracy of 
compensation claims.  VBA has a goal of 145 days.  Their accuracy 
rate according to them is 88 percent. 


Do you think these are reasonable and, if not, what does your 
association consider reasonable attainment goals?


Mr. Cullinan.  Well, our view is that the VA's stated goals are 
laudable, but it is very unlikely that they are going to achieve 
them.  They are reducing the staff available to ensure both 
timeliness and accuracy of claims processing. 


You have a retirement, baby boom retirement looming on the horizon 
with respect to adjudicators and other people working within the 
compensation area.  We are all aware that unlike a lot of other 
areas, adjudicators are one of the best examples, need to be 
trained.  It is not a profession for everyone.  It is very 
demanding.  It is tiring at times.  It takes a lot of time to get 
a person up to speed in that area.  I think the dropout rate is 
about twice as high among adjudicators as other parts of the VA. 


So what that means is you have to bring people into the system, get 
them up to speed, properly trained, and operational now and not 
sometime in the future.  And reducing the amount of people going 
into the compensation work in the area is going to be disastrous. 


The VA came out -- what was it -- their morning report.  The claims 
backlog is increasing.  There are those who believe it is going to 
be up to about 900,000 in the not-so-distant future.  This is a very 
serious problem and it is not getting any better. 


So the stated goals of VA are fine.  Are they going to achieve 
them?  We cannot see how that is possibly going to be the case. 


Mr. Miller of Florida.  Okay.  Mr. Robertson, you talked about a 
majority of the claims involve multiple issues that are legally 
and medically complex and time consuming to adjudicate.  And for 
all of you here, I cannot imagine what a veteran would have to go 
through if they did not have the ability to go through and use 
your organizations to help them with the filing of their claims. 


Do you see, and I will ask it to any of you, do any of you see the 
ability of bringing, if a veteran chooses, bringing an attorney in 
at an earlier stage, because it is apparent that once an attorney 
is brought in, the claims rates go way up, I mean, because it 
appears that once everything is fixed from a legal perspective 
that things move along progressively? 


Do you see any good in bringing an attorney in if they choose to 
do so?  And I am not saying they should have to do that.  I am 
just saying if they chose to do that because right now they 
cannot. 


Mr. Robertson.  Thank you, Mr. Miller. 


It is a very difficult question because of the fact that there is 
really nothing to compare the VA claims and adjudication process 
to.  You cannot easily compare it to Social Security, that if you 
file a Social Security disability claim, you know, the time that 
that is awarded because, like you said, many of these cases have 
multiple claims or disabilities that are being identified.  There 
has got to be the connection between military service and the 
injury or the condition. 


So, you know, bringing an attorney into it, I, with all due respect 
to attorneys in the room, I do not think that that would help the 
problem.  It would probably create more problems. 


The accuracy rate on decisions, if the case is appealed, that throws 
it into a whole other waiting queue, I think that the accuracy of 
processing the original claim, the case development, that will help 
speed it up. 


Obviously military records is the big key.  I know from my own 
personal experience in the Gulf War, I was going to sick call every 
ten days because of a medical condition that I had, but nowhere in 
my National Guard military records for active duty service is there 
one piece of paper reflecting that I went to sick call.  But I can 
get everybody in my platoon to verify that I had these medical 
problems and that I was going. 


That is part of the problem.  The onus of proving that you were 
in the theater, the onus of proving that you got the inoculation, 
the onus of proving you were given the pteidotigmine bromide 
tablets, all of that is an onus on the veteran if it is not in 
his medical records.  And, you know, that is part of the problem.  


This is not a check one or two and then send in the answer type 
process.  It is much more complicated. 


Where I disagree is that if there is a tough decision, I would 
choose to err on the side of the veteran because I do not think 
veterans just make this stuff up hoping to get compensation.  I 
do not know of anybody that goes in the military and you ask 
them why they go in and they look at you and say so I can get 
disability compensation for the rest of my life.  They want to 
serve their country.  They want to do their job.  They want to 
come back and spend their life with their families. 


So in answer to your short question, I do not think a lawyer would 
help any earlier in the process because it is kind of like 
legislation.  You do not want to see it being done. 


Mr. Miller of Florida.  The light is blinking.  If I can get, I 
guess, quickly. 


Mr. Violante.  I would just like to mention DAV would be opposed 
to allowing attorneys in the system.  We do not think it would 
benefit the system.  It would benefit attorneys certainly. 


I think you can look at the statistics at the Board of Veterans 
Appeals where attorneys are allowed to represent veterans and you 
will see that their allowance rate is not any higher particularly 
than the DAV's or any of the other Veterans Service 
Organizations. 


Mr. Miller of Florida.  Thank you, Mr. Chairman. 


The Chairman.  Thank you, Mr. Miller. 


Ms. Herseth, you are now recognized. 


Ms. Herseth.  Thank you, Mr. Chairman.  And I want to thank all of 
you for being here today, for the testimony that you have 
presented, your views on the budget and the concerns that you 
have raised. 


A couple of initial comments.  I certainly share the concern that 
you have and I think many members of the Committee have about 
the Administration's budget when it is proposing measures that 
the Committee and both chambers have repeatedly rejected. 

And I think that it is disingenuous at best then for the 
Administration to suggest that, well, we have increased the overall 
budget and then not say by assessing charges on veterans themselves 
to make them pay for increases in spending on the their health care 
needs as opposed to asking the entire country, all citizens, to 
help meet the health care needs of veterans around the country. 


So I think you will again see a rejection of those proposals.  And 
we will have to find the resources that are necessary, that are 
warranted, that should be warranted year after year, to meet not 
only benefits in health care but other benefits. 


And speaking to that, Chairman Boozman had a hearing yesterday with 
the Economic Opportunities Subcommittee for which I am Ranking 
Member.  And I appreciate the comments that you made today about 
the various programs under the jurisdiction of the Subcommittee 
and specifically noting that the Independent Budget addresses the 
Specially Adapted Housing Program.  I am glad to see that is among 
your legislative priorities.  And I plan to introduce legislation 
in the days ahead to increase the Adaptive Housing Grant and look 
forward to working together with you to meet the housing needs of 
our disabled veterans. 


I have just one question and it focuses on long-term care.  And I 
posed this question to Secretary Nicholson and Dr. Perlin as well 
last week.  And you note the need for a long-term, strategic plan 
to meet the long-term care needs of our veterans. 


And as I am sure you are aware, as part of the fiscal year 2006 
Military Quality of Life VA Appropriations Bill, the VA is required 
to develop a plan with stakeholders to gather information about 
long-term care and assisted-living needs.  That is a requirement 
that was just enacted. 


Have any of you or the organizations you represent yet been 
contacted by the VA with regard to developing this plan? 


Mr. Robertson.  We just know it is supposed to have been done and it 
has not been done.  And we applaud Mr. Stearns when he put together 
the Millennium Health Care Act, that we agreed with him one hundred 
percent.  We felt at that time that if there was not a benchmark 
that there would be a loss of those inpatient beds. 


We were very concerned when the CARES process was underway, that 
they took out mental health and long-term care as part of that 
process.  We raised cane about that and tried to bring it to the 
attention of members, that it is hard to make decisions on the 
infrastructure when you are taking out two critical parts of the 
formula. 


We understand that the mental health portion, I think, has been 
completed and now they are working on the long-term care portion.  
But we strongly believe that that is an element of this system 
that needs to be focused on and the law needs to be complied 
with.  That is pretty much where The American Legion comes from. 


Mr. Cullinan.  I am not certain that we have been contacted yet with 
respect to this issue, but we certainly share the concern that -- we 
testified to this extent last week before this Committee -- is that 
long-term care has not been addressed under the CARES plan, that 
there has been the diminishment of VA's own capacity in that 
regard.  And it seems to be something that is not being given the 
attention that is required. 


Mr. Violante.  I agree with my colleagues.  I do not recall having 
any formal conversations with VA.  We certainly have let them know 
what our position is and we are concerned about where they are 
going. 


Ms. Herseth.  Well, thank you all. 


And I would just ask the Chairman, this is within our whole care 
system, I just do not think the country is ready for what the 
long-term care needs are going to be of our nation's veterans let 
alone our parents and grandparents.  And I would just ask to work 
with you and the rest of the Committee to make sure that the 
strategic plan is developed, that we stay on top of that in our 
oversight, that stakeholders like the organizations represented 
here today are a part of that process as is required, and that 
we work in making that a priority to figure out the best way that 
we go about meeting those needs and reviewing and offering our 
input into what that strategic plan would be. 


Mr. Robertson.  Ms. Herseth, if I may add one other comment.  A 
message that I have heard repeatedly from our greatest generation 
veterans in need of long-term care is that when they were making 
their post employment-world decisions, they knew that VA had the 
capacity to take care of people in need of long-term care.  And 
they thought that that was something that if they ever needed it, 
if they lived that long where they needed that service, that the 
VA would have it. 


So they did not go out and buy these other packages for long-term 
care and now they are at a point of their life that if they went out 
and tried to purchase such a package, you know, it would not be 
cost effective.  So, you know, in part of their life expectancy 
planning, VA was a very vital part and to have that disappear is 
pretty tough for a lot of them right now. 


The Chairman.  Ms. Herseth, appreciate your contribution. 


Dr. Boozman now recognized. 


Dr. Boozman.  Thank you very much, Mr. Chairman.  Again, it really 
is good to have you here. 


As Ms. Herseth said, we had an excellent hearing, I think, 
yesterday.  And certainly the Independent Budget has been very 
helpful as we look at our Subcommittee and try and sort things 
out. 


One thing you mentioned, Mr. King, about the TAP Program.  And last 
year, our Subcommittee, myself, Ms. Herseth, looked really hard at 
a seamless transition as these folks are transitioning back.  And 
I agree with you.  I think the program does a good job from what 
we were able to determine. 


The percentages that you mentioned, you know, I agree with you 
totally.  I think that is something that we need to get up higher.  
It is a little harder.  The Guard situation, you know, being in 
the Guard, it is a little harder to, you know, figure out exactly 
how to get that done with them because, you know, you have got 
these folks that are fairly independent. 


We went to New Hampshire, looked at best practices there and things. 
But, in fact, I would even go a step further.  I think it is 
important that not only do they need to have to have it done, you 
know, and be participants, but I would suggest that during different 
phases of their career, they need to have it done. 


A guy that is going to be in there for twenty years, there is a lot 
that he can learn, you know, from a program after five, ten, fifteen 
years as far as preparing him, you know, to get out and serve. 


Now, we have had a little resistance, you know, that maybe when you 
present these facts to individuals, you know, that you are going to 
have a retention problem.  You know, after being around it, my thing 
has been just the opposite.  You know, many of these individuals do 
not realize, you know, the benefits that they are getting.  And 
they will say, gosh, you know, we had not heard about this since 
we were recruited.  So I think we are on the right page. 

The other thing, and then I will let you comment, but the other thing 
is that we really do -- I want to compliment you all and Mr. Ondick, 
the Ohio Department on the AMVETS career center.  That is a stellar 
place. 


And the other question I would have is, do you have any plans to 
expand that program to other states? 


Mr. King.  First of all, on the transition assistance, Congressman, 
I appreciate what you are saying, that the National Guard or Reserve 
units may not have as much of an opportunity for transitional 
assistance.  However, when a unit has been deployed and they come 
back home, they do have some post-deployment meeting and conference. 
And that would be a good time to work with the transitional 
assistance there. 


As far as the AMVETS career centers, as I stated before, this one we 
have in Ohio is run by the Department of Ohio.  The Department of 
Illinois is right now looking at doing the same thing within its 
department and hopefully some of the other departments could expand 
it.  It is a lot of help to a lot of veterans. 


Dr. Boozman.  Thank you, Mr. Chairman.  I have still got a second 
left. 


You mentioned, Mr. Violante, increasing the FTEs on education service 
by 100 and 200 on the Voc-Rehab and Employment service.  What do you 
envision?  What is the reason behind that specifically?  What would 
you have those folks be doing? 


Mr. Violante.  What was the purpose behind our increase in those?  
Well, I think for Vocational Rehabilitation, there was a Commission 
or a Task Force that established the need for, if I remember 
correctly, several hundred new FTE for those programs to ensure 
that not only are they being provided with Vocational 
Rehabilitation, but then once they receive that, they can get 
into the Employment area too.  And I do not think the current 
request is sufficient enough to handle that. 


And I am sorry.  The second part of that question was for what? 


Dr. Boozman.  The 100 for the Education service and then the 200 
for the Voc-Rehab and Employment. 


Mr. Violante.  Right.  And for Education, again we have a lot of 
veterans that are coming out of the military will be using their 
educational benefits and we want to make sure that they receive 
those in a timely manner.  And that is what the need was for. 


Dr. Boozman.  Thank you very much. 


The Chairman.  Ms. Berkley, you are now recognized. 


Ms. Berkley.  Thank you, Mr. Chairman, and thank you, gentlemen, for 
being here again.  It is always a pleasure to see you and thank you 
for the hard work that you do on behalf of the veterans of this 
country. 


I was at Walter Reed a couple of weeks ago.  I met with a young 
lieutenant.  He lost an arm and a leg.  And the arm and leg that he 
still has attached are not working very well.  He was there with 
his young wife and his dad who had been a school teacher for 35 
years before he retired.  This soldier, this lieutenant, wanted 
to talk to me about the men he left behind and that he lost.  And 
that is the caliber of soldier that we have fighting for this 
country. 


So with all due respect, Mr. Bilirakis, and I have never done this 
before, I want to disassociate myself with your comments that the 
Administration's VA budget is just a negotiating tool because if 
it is only a negotiating tool and we are going through this process 
knowing perfectly well that that budget is dead on arrival and the 
provisions in there are next to useless, then why are we going 
through this exercise and ought we not stop using our veterans 
for these type of legislative games? 


We know how many veterans we have.  We can estimate how many we are 
going to have.  We know the cost of care.  So why don't we get 
beyond the game playing and the negotiating tools and do what is 
right by our veterans? 


Now, I talk to my veterans all the time.  I know they were opposed, 
and should have been, to the enrollment fee that was proposed last 
year in last year's budget.  They are opposed to increased 
prescription medication co-pays.  Most of my guys back in Las 
Vegas cannot afford them.  And we worked very hard collectively, 
Republicans and Democrats, to get it out of last year's budget. 


So imagine my dismay, and I can only imagine yours, when this year's 
VA budget came back with the same stuff when we know perfectly well 
it is not going to be agreed to by this Congress, Democrat and 
Republican alike. 


So to me, I find it most disingenuous of the Administration and 
the VA Secretary to sit where you are now and tell us that they have 
a budget that is based on about $700 million worth of fees that 
they will never be able to realize. 


And I find it shocking that the President's budget boasts that these 
fees are going to discourage more than 200,000 veterans from using 
the VA for health care.  To me, that is despicable.  We should be 
encouraging our veterans to use the VA for their health care needs. 


Now, we know last year we went through the same exercise, and I 
recall members of this Committee asking the VA Secretary and his 
fellow administrators if what they were proposing to us was enough. 
And they assured us that it was. 


Needless to say, it was terribly embarrassing for this Committee, 
terribly embarrassing for this Congress, certainly embarrassing for 
the VA when they had to come back six months later and ask for 
almost the exact amount of money that was set forth in the 
Independent Budget.  I would hope that we could do better by our 
veterans than that. 


And I share the concern that you have with the growing backlog of 
veterans' claims.  I am beyond concerned that without adequate 
funding, this backlog is going to grow.  And it does not take a 
genius to figure this out.  And cutting 149 staff members at a 
time when we are at war and there will be more and more claims as 
years go on defies imagination to me.  I cannot even begin to 
understand this. 


Now, the United States is paying five billion a month, a hundred 
thousand dollars a minute for operations in Iraq and Afghanistan.  
And I think as Ms. Herseth said, we are not at all prepared, the 
VA is not at all prepared for what is coming.  We are going to be 
deluged, deluged with members of the military that are coming 
home.  They are going to be our veterans.  They need to be taken 
care of.  And we need to be planning for that now and I am afraid 
we are not doing that. 


In the very short time I have left, what additional resources do 
you think the VA needs to meet its claims processing workload, not 
only the processing, but to improve the accuracy because I agree 
with you it makes no sense to put more claims in and have the 
remand rate go even higher than it is?  And Nevada has the fourth 
highest remand rate, so I know what I am talking about. 

Second question is, can you suggest to us what systemic deficiencies 
need to be corrected in order to adequately process claims? 


Mr. Violante.  Well, first, in answer to your question about the 
numbers, as I mentioned, for C&P service, we are looking at roughly 
10,820.  The President's proposal is 9,445.  So it is a considerable 
number that is needed for claims processing. 


The systemic problem, I think we have talked about this time and time 
again.  It is the lack of proper training.  It is the lack of 
accountability.  It has been insufficient FTE levels over the years 
that have kind of eroded their ability. 


We would certainly love to see not only the FTE levels come up but 
also VA to do some training and for Congress or someone to put some 
type of accountability standards in there so VA can get these claims 
right the first time. 


And as Mr. Miller was talking about earlier, you know, there is 
both processing time for the claims and accuracy.  And certainly I 
think we would like to see the emphasis be on accuracy because I 
certainly would rather get a correct claim in 180 days than an 
incorrect claim in 90 days. 


So if we can correct the training problems, the accountability, and 
a proper level of FTE, I think we will be on the road to success. 


Mr. Cullinan.  Congresswoman Berkley, I would certainly agree with 
what my colleague just said. 


And I think something else that might be looked at, VA has an 
awfully hard time hanging onto its adjudicators.  So it may be that 
their GS level is not quite high enough.  It is a tough job and 
it takes a very special sort of person to do it.  So perhaps that 
is something that needs to be looked at. 


Ms. Berkley.  You are seeing a certain amount of burnout if that 
is -- 


Mr. Cullinan.  Yeah.  There is burnout.  And the thing is they can 
do better elsewhere financially.  For the skill level that is 
required to be a good adjudicator, they can go somewhere else, a 
lot less stress, a lot less tedium, and make more money. 


Mr. Robertson.  And another part of that, as Joe mentioned, you 
really cannot buy experience.  One of the things that The American 
Legion has been asking is, if Voc-Rehab when they are rehabilitating 
our guys and gals that are coming back from overseas, if they are 
encouraging them to look at a career as a claims adjudicator within 
the VA system. 


It would seem the veterans have a vested interest in taking care of 
their buddies and would, I think, make the claims process a career 
as many of the people that came back after World War II.  What did 
they call it?  The Class of '46.  They were a bunch of World 
War II veterans that were in the system for an extremely long 
period of time.  That may be what we need are more disabled veterans 
that are being attracted to that career field. 


Ms. Berkley.  In your objective opinion, do you think that the 
veterans' budget that was submitted by the Administration is 
adequate to meet the needs of our veterans in this country? 


Mr. Robertson.  No, ma'am.  We testified to that last week.  And we 
think it fell short.  We applaud the work between OMB and the VA.  
At least this time, they included the returning veterans, a more 
accurate reflection of how many returning veterans from OEF, OIF 
would be coming to the system.  But we still see that it is short. 


Mr. Cullinan.  We testified with respect to the construction 
portion.  That is clearly short.  For the rest, it is a lot better 
than it has been in recent years.  Does it come up short?  Yes.  
Will it allow, for example, category eight veterans back into the 
system?  No, it will not do that.  So it is a mixture of good and 
bad. 


Ms. Berkley.  Okay.  Thank you. 


Mr. King.  I agree.  The budget is still, as we said before, over a 
billion dollars short in our opinion.  The only thing I saw as an 
increase in it was on mental health. And I do applaud that because 
it is needed.  PTSD is something that seems pervasive throughout 
all veterans, World War II, Korea, Vietnam, Gulf War.  And seeing 
an increase in mental health care is good, but the rest of the 
budget is still inadequate. 


Mr. Violante.  And I would go with that, that there is some room for 
improvement. 


In Mr. Bilirakis' defense, I would like to say, though, that every 
Administration always starts off low.  Unfortunately, sometimes it 
is the sub-basement.  Other times, it is the first floor. 

It is very unfortunate that for any Administration, veterans are not 
a priority, making it a little easier on members of Congress to 
find, you know, a smaller amount of resources necessary.  But, 
again, this budget is lacking not as bad as the last several years. 


Ms. Berkley.  And in conclusion, I hope that we will reinstitute our 
joint hearings.  I found them wonderful.  And I know the veterans 
that came to our nation's Capitol from the great State of Nevada 
just loved coming and enjoyed the pomp and the circumstance.  And I 
miss it too.  So I hope we will do that again next year. 


Thank you very much, Mr. Chairman. 


The Chairman.  Thank you. 


Gentlemen, thank you very much for your testimony. 


By way of process, the Committee will be receiving testimony of 19 
Veterans Service Organizations and Military Service Organizations 
between now and tomorrow.  Both parties will have an opportunity to 
caucus prior to our business meeting. 


The business meeting on views and estimates will occur on Thursday 
at three o'clock.  And then we break.  But next week, we are 
required to present our views and estimates to the Committee. 


So this is a very fast train.  And receiving your testimony ahead of 
the time before doing these views and estimates has never been done 
before before this Committee.  And this is valuable input that we 
have never had before. 


And so I want to thank you for your participation and the 
professional and substantive way in which you delivered your 
testimony today. 


Mr. Violante, if you could be helpful to the Committee.  You made a 
pretty generalized statement.  You could be far more helpful to us 
if you could provide us with some specifics when you said, "Hearing 
from the field." 


So all of us should do our travels.  And also with regard to that, 
in that statement, if you could then provide us some greater detail 
where that is said, I would appreciate that.  Not now.  If you could 
do that to us in writing, I would appreciate that. 

Mr. Violante.  That is impossible because they try to be candid 
other times that I want to be acknowledged. 


The Chairman.  Well, where you can be specific, please do. 


Thank you very much.  This panel is now excused. 


I would like for the second panel to please come forward. 


For the second panel, we will receive testimony from Colonel Herb 
Rosenbleeth as representing the Jewish War Veterans.  Colonel 
Rosenbleeth enlisted and served five years in the United States 
Marine Corps Reserve.  He was discharged as a Lance Corporal.  He 
then served another 26 years as a commissioned officer in the 
United States Army. 


His overseas assignments include Vietnam, Iran, and ultimately 
Director of Program Review and Evaluation of the Office of Secretary 
of Defense. 


I would like to thank you, Colonel, for your service to country and 
your presence here today. 


Representing the Blinded Veterans Association is Mr. Tom Miller, the 
Association's Executive Director, a Marine Corps veteran.  Mr. Miller 
was blinded as a result of combat injuries in Vietnam and medically 
retired as a first lieutenant in April of 1968. 


After unsuccessful eye surgery in June 1968, Mr. Miller enrolled in 
blind rehabilitation at the Hines, Illinois VA Hospital in August 
1968 and graduated that November.  He was appointed as Executive 
Director of the Blinded Veterans Association December 19th of 
1994. 


We will also hear testimony from Sergeant Major Gene Overstreet who 
is here representing the Non Commissioned Officers Association of 
the United States.  Sergeant Major Overstreet has a had a long, 
illustrious military career serving our nation in the United States 
Marine Corps from 1966 until his retirement in June 1995. 


He is a Vietnam veteran and is the 12th Sergeant Major of the Marine 
Corps.  He accepted the presidency of the Non Commissioned Officers 
Association on August 22nd, 2003. 


Does Sergeant Major "Gunny" Lee owe his successes to you? 


Sergeant Major Overstreet.  Say that again, sir. 


The Chairman.  Does Sergeant Major "Gunny" Lee owe his successes to 
you? 


Sergeant Major Overstreet.  Absolutely, sir. 


The Chairman.  I should not say sergeant major.  "Gunny" Lee is 
always in my mind.  Sergeant Major Lee.  He does? 


Sergeant Major Overstreet.  Well, I would not know about that.  He 
followed me into that.  He worked for me a couple ways along the 
way here, sir. 


The Chairman.  I will bet.  He is always a "Gunny" to me. 


Sergeant Major Overstreet.  Absolutely, sir. 


The Chairman.  I cannot get it out of my mind. 


We also have Mr. James Randles, the 2005, 2006 National Commander 
of the Military Order of the Purple Heart.  He spent his Army career 
as a tanker serving in various positions in armored and CAV units.  
He commanded G Troop, 2d Squadron, 11th Armored CAV Regiment in 
Vietnam.  It was during this command that he was wounded and 
eventually evacuated to Fort Lewis, Washington. 


We will also hear from Mr. McNeal, the Executive Director of the 
Paralyzed Veterans of America.  Mr. McNeal assumed his duties at 
PVA on October 1, 2001.  He is a Purple Heart recipient, 
combat-injured Vietnam veteran.  He has been a PVA member since 
the early 1970s.  PVA cosponsors the justly famous Annual National 
Veterans Wheelchair Games.  This year's games are being held in 
Anchorage, Alaska in July. 


Gentlemen, we thank you for being here today. 


And, Colonel, you are now recognized. 


STATEMENTS OF HERB ROSENBLEETH, NATIONAL EXECUTIVE DIRECTOR, JEWISH 
WAR VETERANS; ACCOMPANIED BY TOM MILLER, EXECUTIVE DIRECTOR, BLINDED 
VETERANS ASSOCIATION; DELATORRO MCNEAL, EXECUTIVE DIRECTOR, 
PARALYZED VETERANS OF AMERICA; GENE OVERSTREET, PRESIDENT/CEO, 
NON COMMISSIONED OFFICERS ASSOCIATION; JAMES RANDLES, NATIONAL 
COMMANDER, MILITARY ORDER OF THE PURPLE HEART 



Colonel Rosenbleeth.  Thank you, Mr. Chairman.  Mr. Chairman, I 
request our organization's statement be made a matter of record, but 
I am not going to read any of it.  I am just going to -- 


The Chairman.  Will you turn on your microphone, please, Colonel. 


Colonel Rosenbleeth.  There we go.  Is that on? 


The Chairman.  Your written statement will be submitted for the 
record without objection. 


STATEMENT OF HERB ROSENBLEETH 



Colonel Rosenbleeth.  All right.  I am not going to read any of it.  
I am just going to make some remarks. 


First and foremost, our organization agrees fully with the 
statements presented, the four statements presented before me.  
And I know that we will be supportive of the statements coming 
after us.  We are all veterans.  We all served in the same military 
and we all seek the same care for veterans. 


I would also like to express a big thank you to Mr. Bilirakis and 
Rebecca Hyder.  It was quite a while ago, I remember one day in 
your office where we talked about concurrent receipt.  You summoned 
a bunch of us.  I think you and I are the only two left from that 
group.  But I thank you for your work. 


While we did not get everything we wanted, Mr. Bilirakis, you did a 
great job and I appreciate that. 


And I want to thank Jim Holly for much support that he gives our 
organization and to me, and Mr. Filner for coming out to our 
convention, being brave enough to speak before our convention 
one year recently.  I thank you for that. 


Our National Commander has a saying.  He says never leave any 
veteran behind.  And that is any veteran.  And I also heard the 
word core veteran.  I picked up on that also.  And we want no 
veteran left behind, whether he's a seven, whether he's an eight, 
whatever it was.  We all served.  Some people were wounded.  Some 
people suffered no injury, no illness.  But we are all veterans.  
We all served and we want to see -- our organization stands for 
mandatory funding for the VA and for care for all veterans.  
No line there. 


Is the VA adequately funded?  Absolutely not.  I cannot figure out 
what the shortage is, but clearly it is short when veterans cannot 
all receive care.  No question.  And we ask, we look to this 
Committee, Mr. Chairman, and your leadership and the Committee's 
leadership to have the VA adequately funded so no veteran is left 
behind.  That is the one point I want to make. 


My second point would be we want the joint hearings. Our organization 
goes to an annual convention every year and they laboriously go over 
their resolutions.  The Chairman reviews this with them.  The whole 
convention adopts the resolutions after much arguing and bickering 
and fine tuning. 


They look forward to coming in March to a joint hearing with the 
Senate and House Veterans' Affairs Committee and hearing the 
National Commander present the priorities they developed.  They all 
want to be in the room.  They all want to cheer and yell and be 
there with their comrades.  And they want to see the Commander 
make the presentation and they all want to hear it.  And I very 
strongly ask, request that these hearings be continued in the 
way they had been for decades. 


And my concluding remark is, please, never leave any veteran behind. 
Thank you. 


[The statement of Herb Rosenbleeth appears on p.  ] 



**********INSERT**********


The Chairman.  Mr. Miller. 


If you'd help the gentleman, please. 


STATEMENT OF TOM MILLER 


Mr. Miller.  Thank you, Mr. Chairman.  On behalf of the Blinded 
Veterans Association and our National President, Larry Belote, I 
want to express our appreciation for the invitation to present our 
2006/2007 legislative priorities today before this Committee. 


I would like to thank Mr. Evans as well, and would like to echo the 
comments of Colonel Rosenbleeth in commending Mr. Bilirakis for his 
many, many years of dedicated service on this Committee and the 
Godfather, if you will, of concurrent receipt.  And no one has ever 
accused Mr. Bilirakis of not being persistent. 

We are going to miss you.  And, again, we thank you and your 
terrific staff for all your support over the years. 


As I begin, Mr. Chairman, I am probably the only witness that can 
tell there is a full Committee sitting up there.  But I want to 
start with some comments relevant to seamless transition.  There 
has been a lot of discussion on that issue with the previous panel 
and I know the hearings last week. 


But I would like to be a little bit more focused in terms of the 
good news and the bad news from our perspective with regard to the 
seamless transition for those servicemembers returning from OEF 
and OIF that have suffered significant eye casualties. 


The good news is those that come back totally blind or severely 
visually impaired, the seamless transition works.  They are referred 
to VA here locally.  They receive services from a blind 
rehabilitation outpatient specialist during their stay here at 
Walter Reed or Bethesda.  And then they are referred on to one of 
the VA blind rehabilitation centers across the country. 


The bad news, however, is for those servicemembers returning, and we 
are aware of at least 80 and that number seems to be growing, who 
have lost one eye or the vision in one eye, these individuals, we 
believe, are in danger of falling through the cracks.  They are 
not receiving comprehensive low vision evaluations to determine 
the extent, if any, of visual impairment in their remaining eye.  
Many of these individuals are, in fact, being told if a resident 
or an ophthalmologist holds up fingers in front of their face, if 
they can count fingers, they are not blind. 


We are particularly concerned about those servicemembers from the 
Guard and the Reserve who will be returning home and will not have 
access to the appropriate vision rehabilitation services that they 
may very well need for a lack of a comprehensive low vision 
evaluation at the time of their hospitalization, whether it be at 
Walter Reed or Bethesda or any of the other military treatment 
facilities across the country who are receiving casualties from 
Iraq and Afghanistan. 


What is even more disturbing, I think, in this regard is the fact 
that the Army, we know for sure, has absolutely no centralized 
tracking system to know how many of these individuals there are 
and where they are.  We have been unable to find out what the Navy 
does in this regard. 


We have been told for over the last six months that Bethesda has not 
received any eye casualty patients.  It is very difficult to believe 
given the number of Marines that have been wounded severely in Iraq 
due to IEDs and other explosive devices and the nature of the wounds 
that have been suffered by these Marines and soldiers in theater. 


I would like to segway the concern about the servicemembers coming 
back who have lost vision in one eye only or lost the eye completely 
into a request for support for legislation that has been introduced 
by Representative Baldwin from Wisconsin.  I am referring 
specifically to House Resolution 2963, the Disabled Veterans Equity 
Act of 2005. 


This legislation addresses what we believe to be a serious inequity 
in Title 38 of the U.S. Code as it relates to paired organs.  VA on 
its own has chosen to use a more rigorous and higher degree of 
vision loss in determining paired organ service connection. 


In the way of a brief explanation, if a veteran has a 
service-connected loss of one of a paired organ and subsequently 
loses function in the other organ, it may be service connected as 
well, treated as though it were service connected. 

For those servicemembers returning or older veterans who have lost 
one eye and subsequently later lose vision in the remaining eye, 
the legal standard for blindness accepted by VA and all other areas 
of VA and by the Social Security Administration, IRS and, for the 
most part, internationally, that standard for legal blindness is 
not applied in the paired organ section of the Title 38. 


VA has opted to use a higher degree of vision loss with respect to 
service connecting that non-service-related eye.  We would encourage 
and hope that each member of this Committee would cosponsor that 
legislation and that the appropriate Subcommittee would hold a 
hearing to explore the merits of this legislation. 


Moving from the seamless transition, most all of the blinded 
veterans, servicemembers returning back from Iraq and Afghanistan 
will be moved into the VA health care system, hopefully to 
receive comprehensive blind rehabilitation services.  Before 
veterans can seriously consider employment, continuing 
education, and reintegration into their families and their 
communities, rehabilitation is absolutely essential and it is 
the first step. 


BVA will be celebrating our 61st anniversary next month.  And we 
have been closely involved with a very, very close and effective 
partnership with this Committee and the Department of Veterans' 
Affairs in developing, protecting, preserving, and seeking 
innovation in VA's Blind Rehabilitation Program. 


For many, many years, nearly 58 years now, the only option for many 
blinded veterans has been to go to a comprehensive residential 
blind rehabilitation center.  When I went through blind 
rehabilitation at Hines in 1968, there were only two such 
centers.  Currently there are ten. 


Unfortunately, all veterans in need of rehabilitation services are 
unable or unwilling to leave home and travel hundreds or thousands 
of miles to attend one of these residential blind rehabilitation 
centers. 


VA has begun to recognize GAO, the Visual Impairment Advisory Board 
appointed by the Under Secretary for Health, and the CARES 
Initiative all recognize the need for VA to expand its capacity 
to deliver comprehensive, high-quality vision rehabilitation 
services on an outpatient basis and provide those services in a 
local area for those veterans who, for whatever reasons, are 
unable to take advantage of the residential center or, quite 
frankly, may not need the comprehensive residential center, yet 
have needs that could be addressed through provision of those 
services locally. 


The full continuum of vision rehabilitation care which is embraced 
by the National Leadership Board and the Health Systems Committee 
of the National Leadership Board and the major governmental 
agencies that I have already alluded to are looking forward to 
and, in fact, envision full continuum of vision rehab services 
incorporated in the Network Director's five-year strategic plan. 


The only problem with that is resources.  I will address budget 
issues a little bit later on.  But in order for VA to implement a 
full continuum of vision rehab services, they are going to need 
additional resources, new dollars earmarked -- and I know that 
is not a good word around here these days -- but directed funding, 
specific dollars to enable VHA to implement a full continuum. 


Thanks to Mr. Michaud of this Committee who has introduced House 
Resolution 3579, the Blinded Veterans Continuum of Care Act of 
2005.  And this legislation would establish 75 new blind 
rehabilitation outpatient specialist positions located around 
the country where there is significant need and a lack of 
capability to provide outpatient services. 


We believe this is an excellent first step and we want to commend 
Mr. Michaud for this sensitivity and, pardon the pun, his vision.  
It is going to be a very, very important first step. 


As I mentioned earlier, every blinded servicemember that has come 
through Walter Reed and Bethesda Naval Hospital have received 
some early intervention services from the blind rehabilitation 
specialist who is assigned here in the greater Washington/Baltimore 
area. 


All of the comments we have received as we visit those veterans over 
in the hospital and their families has been very, very beneficial 
to them.  It has been instrumental in helping them to get some sense 
as to where they need to go and what is available to them through 
the Department of Veterans' Affairs to help them overcome the 
sudden and traumatic loss of vision which they are encountering. 


The third issue I would like to address, Mr. Chairman, and it has 
been touched upon by all of the previous witnesses and I am sure 
the remaining VSOs and military organizations will concur, BVA is 
very proud to have been a member of the Veterans Health Care Budget 
Partnership Health Care Reform. 


And we echo the statements of the previous panel that we believe the 
current methodology for funding VA is broken, that we believe an 
assured funding mechanism, mandatory funding is critical. 


One of the deficiencies in the President's budget request is the 
amount of money that is built into that budget for management 
efficiencies.  We believe one of the greatest ways that they can 
achieve better efficiencies, more effective management is for 
them to know what their appropriation, what they are going to 
receive in terms of budget and that they are going to receive it 
on time, that if they can start to manage October 1 instead of 
February 28th or March 15th, we believe they can manage more 
effectively the resources that are provided. 


With regard to the budget, we again for the 20th consecutive year 
have endorsed the Independent Budget.  We believe it is a proven 
document.  The models that are used have been proven to be 
effective as stated earlier.  The crisis that developed last 
summer brought his home most clearly to all of us. 


The modeling that is used by the Independent Budget Group has proven 
to be effective, accurate, and it addresses specific needs of our 
veterans, nation's veterans. 


The President's budget request for 2007, we are encouraged that it 
is a positive step forward.  Again, we feel that it falls somewhat 
short.  We again oppose the initiatives that are included in that 
request requiring an enrollment fee, the increase in co-pays, the 
management efficiencies, various budget gimmicks that have been 
employed in the past and have been discounted by this Committee 
and by the full Congress. 


The Chairman.  In summary? 


Mr. Miller.  We are concerned, however, and I will not belabor the 
problems with the Veterans Benefits Administration, we feel there 
is insufficient funding to make serious end roads into the current 
backlogs both for claims and appeals. 


Another issue that we are very concerned about was the $13 million 
reduction in VA medical and prosthetic research.  We feel this is 
the wrong way to go, particularly in time of war, and with the 
emergence of new state-of-the-art technology that is being embraced 
and utilized by our returning servicemembers from Iraq and 
Afghanistan, and, by the way, technology that can be very beneficial 
to those of us getting older in order to maintain our independence 
and safety in our activities of daily living. 


With regard to research, we made a plea last year, and I will make 
that again this year.  We are very concerned about the fact that 
VA's research portfolio carries out a number of NIH funded grants. 
Unfortunately, however, NIH refuses to pay VA for the indirect costs 
of those research grants.  They will pay the indirect costs to almost 
anyone else in this country and the many researchers overseas, but 
have refused to pay those costs to VA. 


As a consequence, those indirect costs are coming out of the medical 
care account.  Dollars that could be going to care of sick and 
disabled veterans are being bled off from the medical care account 
in order to support NIH research grants. 


We believe a legislative initiative from a member of this Committee 
would be very, very helpful to address this issue.  We understand 
that Under Secretary Perlin stated that they can make up for the 
reduction in the budget request by getting an increased number of 
NIH grants. 


The Chairman.  Mr. Miller. 


Mr. Miller.  But they also incur the increased costs of indirect 
costs. 


The Chairman.  Mr. Miller. 


Mr. Miller.  Yes, sir. 


The Chairman.  If you could summarize your conclusion. 


Mr. Miller.  Okay. 


The Chairman.  You are almost pushing the 20-minute mark. 


Mr. Miller.  All right.  Just one last comment.  I would refer 
you to our written statement, and I neglected to request that 
that be made part of the record. 


The Chairman.  It will be part of the record.  No objection.  
So ordered. 


Mr. Miller.  We have listed a number of legislative priorities and 
would request that the Committee review those carefully. 


And in conclusion, I would like to thank Representative and Ranking 
Member Lane Evans for his introduction for the 3rd Congress of the 
White Cane Resolution, and would request that all members of this 
Committee should be cosponsors of that.  It passed the House last 
year.  Unfortunately, the Senate failed to act on it.  There is a 
companion bill this year in the Senate, so hopefully. 


We need your help to get it out of the Transportation Committee this 
year here in the House.  It is H. Con Res. 235.  And, again, a 
persistent Marine, Mr. Evans is.  Three Congresses have introduced 
this and the good part is it does not cost the government a penny. 


In conclusion, I would be more than happy to respond to any 
questions.  And thank you again for the invitation to present our 
priorities today. 


The Chairman.  Thank you, Mr. Miller for your testimony. 


[The statement of Tom Miller appears on p.  ] 



**********INSERT**********


The Chairman.  Mr. McNeal, PVA, you are now recognized. 


Mr. McNeal.  Thank you, Mr. Chairman, and members of the House 
Veterans' Affairs Committee. 


I greatly appreciate the opportunity to present the legislative 
priorities of the Paralyzed Veterans of America for 2007.  I ask 
that my written statement be made a part of the records for today's 
hearing. 


The Chairman.  Hearing no objection, so ordered. 


STATEMENT OF DELATORRO MCNEAL 


Mr. McNeal.  Mr. Chairman, I sustained my spinal cord injury in 
Vietnam back in May of 1970.  I have used the VA health care 
system exclusively over the past 35 years.  I have been employed 
by the Department of Veterans' Affairs, the Executive Director of 
PVA Chapter in Florida, and for the past four and a half years, I 
have been the National Executive Director for the Paralyzed 
Veterans of American here in Washington, D.C. 


We must now more than ever rely on the VA mission statement, "To care 
for him who shall have borne to battle and to its widows and orphans."  
As one who relies on the VA every day of my life, I want you to know 
that my statement to you today is on behalf of ten thousands of veterans 
with spinal cord injuries and disease whose access to quality health 
care is the most important thing in their lives. 


VA's ability to provide such care along with the compensation and 
benefit package for support of these veterans is why I am here today 
offering our recommendations to make the system much better. 


First, I want to thank you for the opportunity to present our views 
last week on the Administration's budget recommendation for fiscal 
year 2007.  I would just like to briefly highlight several matters 
concerning the 2007 budget which PVA feels very strongly about. 


The VA medical care budget once again included collections from 
increased co-payments and enrollment fees.  PVA vehemently oppose 
these proposals and encourages Congress to exclude them again this 
year.  If this is rejected, the Department of Veterans' Affairs 
will start this year with an $800 million deficit in medical care.  
PVA strongly recommends that the Congress appropriate sufficient 
funds to make up this major shortfall. 


PVA greatly appreciates the fact that non-service-connected veterans 
with catastrophic disabilities are included in category four.  Our 
members use and rely on the VA system at a very high rate.  They 
require a lot of care and a lifetime of service. 


One of the problems of category four for our members is that many of 
them must pay co-payments for their medications and their care.  
Mr. Chairman, for those who are severely disabled, the needs for 
prescriptions, supplies, and access to inpatient and outpatient 
care can be overwhelming and very costly. 


VA is the best resource for veterans with spinal cord injuries and, 
yet, these veterans supposedly placed in a priority enrollment 
category receive care as, though, they have none. 


We would appreciate the opportunity to work with you to develop 
legislation that will exclude non-service-connected veterans with 
catastrophic disabilities from these costly fees and co-payments. 
We strongly urge the Committee to correct this financial penalty. 


In regards to VA's research budget, PVA is very disappointed with 
the Administration recommendation.  The Independent Budget 
recommends $460 million, approximately 60 million more than 
the Administration's recommendation. 


Mr. Chairman, the first thing a new injured spinal cord patient 
thinks about is will I ever walk again.  The cure to paralysis is 
no longer the question of if, but when.  It is a matter of money 
and time, especially for those men and women who are returning from 
Iraq and Afghanistan.  Do not allow veterans' research funding to 
wither on the vine.  They have gone too far for many. 


Thanks to the research, we have CAT scans, cardio pacemakers, the 
nicotine patch, enhanced wheelchairs, and numerous other discoveries 
that have benefited all veterans and Americans.  PVA urges you to 
keep this program strong and provide $460 million called for in 
the Independent Budget. 


I want to applaud the VA Research Program for establishing the SCI 
Veterans Integration Program which is intended to improve the 
employment rate of veterans with spinal cord injuries.  
Mr. Chairman, over 80 percent of PVA members are unemployed.  
This is unacceptable.  We must do a better job throughout the 
rehabilitation process to improve the livelihood of gainful 
employment for this population.  This is another example where 
appropriate funding for research is critical. 


In the area of SCI physicians and nurses, we believe more must be 
done to recruit and retain qualified people to manage and provide 
bedside care.  We believe at PVA that the VA should acknowledge 
substantial increases in bonuses for these individuals.  We call 
upon Congress to increase the oversight of staffing requirements 
for SCI. 


Mr. Chairman, PVA has 700 members from the World War II era.  They 
have been pushing their chairs for over 60 years.  They are the 
leading edge of an aging population of paralyzed veterans who 
desperately needs long-term care.  PVA strongly opposes any 
proposal that will decrease the beds and staffing level contained 
in the Millennium Health Care Bill. 


This is not a time to reduce VA nursing home capacities with 
increasing demands looming in the horizon.  We hope you will 
reject such legislation and conduct an aggressive oversight to 
ensure VA is complying with its obligation to provide long-term 
care.


Finally, I hope this Committee will keep a watchful eye on the 
efforts by the Department of Veterans' Affairs to contract the 
provisions of health care to other providers.  Last week at the 
budget hearing, Secretary Nicholson touted the remarkable , 
positive media VA has received, calling it a model for the rest 
of the country and private industries. 


I would remind this Committee that it is because the VA is a 
provider, not a payer, that these reports have been so positive.  
VA health care is a national treasure.  Do not allow it to be 
marginalized by contracting care to non-VA providers. 


In closing, I must reiterate a commitment to those who have served.  
President John F. Kennedy said during his inaugural address, and 
I'm quoting, "Our age, if it is to deliver on its promise, needs 
people who can reach beyond that which is already determined, 
that which is already predictable, that which can already be 
expected, and take the lead in creating new possibilities.  The 
demand of this age are extraordinary.  To meet them, extraordinary 
men and women are required.  There is no reason, no motivation, no 
reward for which these people and you and I will make this age 
succeed.  There is our humanity and the stand that we are 


Of those to whom much is given, much is required."  This great 
nation as a whole has been given much by the hands of our veterans, 
many at the cost of lives, limbs, families, quality of life, 
earnings potential, and to the forfeit of their initial hopes and 
dreams.  The reality is that no budget can fully pay the price for 
freedom here in the United States. 


However, now since much has been given to us.  We are now required 
to give back any positive means necessary to demonstrate our full 
support, funding, positive means, and forthright action to secure 
the bright future of those who so bravely paved the way for us to 
be here today. 


Mr. Chairman and the Committee, thank you for the opportunity to 
testify, and I will be glad to answer any questions you may have. 


The Chairman.  Thank you, Mr. McNeal. 


[The statement of Delatorro McNeal appears on p.  ]



**********INSERT**********


The Chairman.  Sergeant Major.


STATEMENT OF GENE OVERSTREET



Sergeant Major Overstreet.  Mr. Chairman, distinguished members of the 
House Veterans' Committee, I would like to thank you for the 
opportunity to testify before you today.  And I am very pleased to 
meet with you and with your Committees and discuss this year's and 
next year's legislative agenda, specifically targeted towards our 
veterans. 


I think it is most appropriate with America's military personnel 
being deployed in harm's way to comment on these programs and 
benefits that will be beneficial not only to the veterans but to 
their families and to their survivors as well. 


I am joined today by members of the Association's National Capital 
Office.  Seated directly behind me is Chief Master Sergeant 
Richard C. Schneider, United States Air Force retired.  And I 
would like to point out that he is still serving.  He serves as 
the Executive Director of Government Affairs.  Dick is a Vietnam 
veteran with over 33 years of service. 


Also with me is Master Sergeant Matt Dailey, United States Army 
retired.  He is the military affairs for the association.  Matt has 
two combat tours in Vietnam, 22-year service, four years active 
service and four years Reserve service. 


And I asked him today, I said when did you get out of the Army, 
Matt.  And he said in 1980.  I said what have you been doing 
since then because I know what he has been doing in recent years. 
 He still serves our veterans every day.  I would suggest to you, 
sir, most of the veterans that you see in here have that same 
work ethics, to serve veterans and take care of them. 


Mr. Chairman, with your permission, I would like to submit our 
statement for the record, sir. 


The Chairman.  Without objection, so ordered. 


Sergeant Major Overstreet.  Thank you.  And I will keep my comments 
to highlight and note some of the important issues that we deem very 
pressing at this time. 


Non Commissioned Officers Association proudly represents enlisted 
servicemembers.  Those servicemembers include active, Guard, Reserve, 
retired veterans, family, and I would like to throw in the survivors 
as well through every stage of their military life from the first 
oath of enlistment to the playing of TAPs. 


The Association's shoulder has broadened from not only 
non-commissioned officers and petty officers, but we now include all 
enlisted members.  This broad cradle-to-grave membership base makes 
the association quite unique amongst our military-related 
organizations. 


The association is charged with establishing and presenting 
achievable legislative agenda that benefits our entire membership.  
Beyond seeking an achievable, the agenda addresses the needs of 
our memberships and even at all times sometimes causes us to come 
before this Committee and other Committees and ask members to stand 
tall and solicit action from your colleagues in the House and Senate 
on issues needed to support the troops and to support our veterans. 


Entering the second session of the 109th Congress, the nation's 
military forces has more service men and women deployed around the 
world in Global War on Terrorism.  More military focus include 
Reserves, Guard called up, more called and more serving and longer 
periods of time than ever before since World War II.  Many of those 
are on their second and subsequent tour already. 


The words of the oath of military enlistment are simple, but provide 
the very essence of service for every military man and woman by their 
ultimate declaration.  These twelve words extracted from the oath are 
the same that all answer the nation's clarion, "Called to duty to 
support and defend the Constitution of the United States." 


Mr. Chairman, I have had the opportunity to raise my hand over a half 
a dozen times to that oath.  And I can tell you, at no time in the 
enlistment oath was there any qualifications or comments such as if 
funds permitting or resources available. 


There is the belief by all those who served and raised their hand 
that they are going to be served with the finest war-fighting 
equipment, support services, health care, and all that is included 
by the institution to take care of them.  When they separate, they 
go with that same kind of thought.  They know if something happens 
to them on the battlefield, they know, at least I know, I believed 
all those years, that my family was going to be taken care of as 
well. 


I would suggest that a disadvantage of not being in the caucus room 
is having the ability to look in the face of veterans because those 
represent, I suggest those represent the wars that each one of them 
has fought in the past.  And I think in each one of their faces, 
they carry a message, a strong message that we need to look into 
and find out what that message is because they have supported the 
Constitution of the United States and this country very well, and 
still are today, I might add. 


I say to you this afternoon that freedom enjoyed by all Americans 
has a price.  The price of this nation should be in the fulfillment 
and the commitment defined by President Lincoln just as my 
counterpart here.  When speaking of veterans, he said, "To care for 
them who have borne to battle their widows and their orphans."  When 
I say widows, I guess I really mean, Mr. Chairman, their survivors. 


I am talking about their spouses, the loved one who have committed 
their life for tendering, nurturing, and physically sustaining them 
for a lifetime.  And oftentimes, you know, that lifetime is cut 
short because of a combat wound or because of services they received 
while in the military. 


So for those spouses, for those families, I am going to suggest, 
sir, to repeal the survivor's tax by allowing concurrent receipts 
of the military survivor's benefit plan which longevity truly has 
paid the premium and should be sought for DIC for payment once 
again for those lives cut short because of their help that they 
got from the military. 


DIC payment is made in support of their prior month.  If a spouse 
dies any time in the prior month, the spouse or the estate is not 
entitled to any of the DIC payments.  Electronic transfers are 
reversed normally days and weeks before the survivor's children 
are aware of this action. 


This reversal for many veteran families creates financial hardships 
and at a time when children are taking care of funerals, final 
arrangements, and for a veteran's spouse, we are aware of instances 
where financial restoration deeply embittered the veteran's 
children and grandchildren and the spouses literally were providing 
for this for their member on a day-to-day basis. 


Can you imagine the entire DIC of a spouse who lived 30 days of 31?  
We encourage the entire DIC payment to be made for spouses who live 
any days, any number of days in the month in which a death occurred.  
We will be authorized to retain that estate.  Disabled veterans have 
paid the price for the ultimate and quibbling over a few dollars is 
just really not worth it.  And what we do to the spouse is certainly 
not worth it either. 


We need an adequate and appropriate budget to provide health care 
for those that are approved and enrolled in our  VA health care 
system.  We are not confident that the 2006 and I would suggest the 
requested 2007 proposed budget makes a defined adequacy. 


In 2007, we call again for user's fee of priority sevens and eights. 
I would like to tell you, Mr. Chairman, NCOA rejects this and we 
would like the Committee to take another look at it. 


VA also suggests pharmacy co-payments are going from $8.00 to $15.00 
in 2007.  We would like for you to look at that, too, because most 
of our members, if not all our members, reject that. 


We may be getting older, but the Association's leadership has not 
forgotten the 2002 vision of the Department of Veterans' Affairs to 
bring sufficient funding and allow priority eights, and I would say 
it looks like priority sevens and eights, veterans to use Medicare, 
Plus Choice, and non-service-related medical treatment for the VA 
health care facilities.  It is time to revisit this vision. 


Nor have we forgotten the vision for TRICARE, Medicare 
reimbursement. 
We think that is a great opportunity to take a look at that once 
again for VHA. 


NCO recognizes a fragmentation which occurs in health care, 
scheduling delays, attempts, disenfranchised veterans, user's fee, 
higher co-payments, locking out veterans.  All of those sorts of 
things kind of lead us to believe there that is not enough money 
to take care of veterans properly, sir. 

I would make one other comment in regards to that as well.  When I 
got out of the Marine Corps ten years ago, sir, the VA was 
implementing a new computer system.  And now we are ten years 
later.  Their computer systems still do not work.  It was a one-all, 
catch-all, do everything.  It is one thing that would be great.  
And if it worked, it would be outstanding. 


However, it is our suggestion that the people running that either, 
one, do not have the technology to run it, the system is broke.  They 
need more training and education to do that. 


I realize my time is up, sir.  And I will pass along there.  I have 
several other things.  And I am pleased to appear before this 
Committee, sir. 


And the very last thing that I would say, sir, is I do not think 
that we should ever, ever forget our missing in action or prisoners 
of war, sir.  And I thank you for the opportunity to appear before 
this Committee, sir.  Thank you very much. 


The Chairman.  Thank you, Sergeant Major. 


[The statement of Gene Overstreet appears on p.  ] 


**********INSERT**********


The Chairman.  Commander Randles.  It was good to see you in 
Indiana.  Welcome to Washington, D.C.  You are now recognized. 


Commander Randles.  Mr. Chairman, I would like to first ask that my 
written statement be entered into the record. 


The Chairman.  Your written statement will be entered into the 
record.  Hearing no objection, so ordered.


STATEMENT OF JAMES RANDLES 

Commander Randles.  Chairman Buyer, members of the Committee, ladies 
and gentlemen, it is an honor to appear before you, this 
distinguished body, on behalf of the Military Order of the Purple 
Heart. 


The Military Order of the Purple Heart is a unique, very unique 
service organization in that the only members have been wounded on 
the battlefields of the world and consequently have been awarded 
the Purple Heart. 


I am accompanied today by my Senior Vice Commander, who is sitting 
in the rear; the National Legislative Officer, Hershel Gober; our 
National President of the Ladies Auxiliary, Judy Spaulding; and 
the very special person in my life, my wife of 32 years, Jerolyn 
Randles. 


This Committee is extremely important to the Purple Heart and its 
members.  We look to you to represent the veterans of our country 
and to ensure that all members of Congress understand that America 
must keep its promises to those men and women who have served or 
are now serving in uniform if we are to maintain a viable military 
and continue to support the freedoms that we have. 


I would like to begin by thanking Congress for passing legislation 
recently that raised the death gratuity and the SGLI benefits for 
those men and women now serving in uniform. 


As part of my testimony here, we have also brought up members from 
each of our departments and we have called what we call March on 
the Hill.  So the purpose of that is that each member of Congress 
will be visited by a member of the Purple Heart or several members 
of the Purple Heart to provide to them, emphasize those priorities 
that we have in regards to veterans' affairs. 


The first of those would be veterans' health care funding.  We 
highly support that and actually the third Commander in a row has 
come up here.  And our number one priority is adequate funding for 
the veterans' affairs. 


MOPH does not care if it is called assured, mandatory, or adequate.  
We just believe that the current system is broken and it needs to 
be fixed.  This is evident in 2005 when Congress provided $1.5 
billion in emergency funding, supplemental funding, and also an 
amendment for the fiscal year 2006 budget with an additional $1.977 
billion. 


As you know, each year, the VA, as other government agencies, has 
reached their budget on October the 1st.  For the past several years, 
this has not occurred.  And VA receives its budget well into the 
fiscal year, making it difficult for the VA to plan ahead and even 
to hire health care professionals.  MOPH joins with other VSOs to 
support and push for this legislation. 

Another area is Senate Bill 185.  This bill has to do with 
survivors' benefit plan and dependent DIC.  This bill would 
eliminate the dollar-for-dollar deduction of DIC paid by the VA 
when the veteran's death is due to service-connected conditions 
from the Survivors Military SBP Program. 


This is appropriate for me, especially interested in me in that I am 
currently out of my retired pay paying monthly an SBP premium so 
that if I die due to a service-connected disability that my wife 
could be getting both DIC and SBP. 
It comes from two different systems.  I am paying for the SBP.  DIC 
is from the VA.  So why?  It is kind of like  concurrent receipt.  
Why do we penalize my wife for me dying and what happened to the 
money that I paid in all those years? 


We also in concurrent receipt feel that everybody that is eligible 
for concurrent receipt should receive it.  And also when it comes to 
the combat service-related compensation, Chapter 61, veterans who 
are awarded the Purple Heart with less than 20 years of service 
should also be eligible to receive the combat service-related 
compensation. 


At our National Convention in Springfield, Missouri last year, we 
had a very heated discussion in regards to the award of the Purple 
Heart Medal to those POWs who died in captivity.  In fact, we have 
had this discussion for several years at our National Convention. 


I am pleased to announce that this year's convention passed a 
resolution in support of House Resolution 2369 and Senate Bill 2157 
which would accomplish this goal. 


And the final program I would like to emphasize is the Stolen Valor 
Act of 2005 or House Resolution 3352 and Senate Bill 2000 or 2998.  
This legislation would have dire consequences for what I call and 
most people call "wannabees." 


It is absolutely appalling to me that any veteran or any person would 
claim that, number one, they have either received the Purple Heart 
or the Silver Star or the Congressional Metal of Honor or any metal 
for which they did not deserve nor earn, and especially the Purple 
Heart because that is a very significant award.  There is only one 
way to get it. 


And in the State of Georgia, it is significant in that if you have an 
award of the Purple Heart, you receive one free license plate for 
your car.  In other words, you pay no taxes of any kind on that 
particular car.  So if you falsely identify that you received the 
Purple Heart and get that license plate, you are then committing 
in my eyes fraud against the State of Georgia. 


I had the honor of getting a letter from one of the State senators 
from Illinois, and he is sponsoring a bill for the State of Illinois 
that is similar to the Stolen Valor Act here making it a fine and a 
prison sentence for anybody who is caught falsifying or claiming 
the medals which they have not received. 


I subsequent to that wrote both he and the Governor and thanked them 
for their foresight, and hopefully this bill will pass in the state. 
And subsequent to that, I am trying to get the legislation. 


So perhaps the Purple Heart as an organization and perhaps the other 
VSOs, we can pass on to other State legislators so that similar 
legislation not only at the Federal level but at the State level 
is enacted to get these wannabees out of the system. 


The only thing I have is once we pass the law, we have to enforce 
it.  The law is only good as we enforce it.  And the first guy that 
is caught -- I am not a very vindictive person, but I think we 
should give him max. 


Finally, I would like to urge each member of Congress, if they have 
not done so already, to go to on a Friday night to Fran O'Brien's 
Restaurant here in Washington, D.C. because each Friday night, they 
host the wounded from Walter Reed and from Bethesda and their 
families to a dinner.  Everything is free for that entire night 
for that group. 


I have had the pleasure of being at several of those, and it is a 
tremendous experience to talk to these young men.  And I have got 
to briefly relate to one when I first went in that this young man, 
he had a prosthetic and he was showing me the use of his arm.  And 
he was really proud of it and he says, sir, let me tell you, this 
is guaranteed a drink at any bar you want to go to.  And he put a 
glass in his hand and he rotated 360 degrees. 


And, you know, it brought tears to my eyes.  And I asked him, I 
said, well, what do you want to do.  And he says I want to go back 
to be with my buddies.  And to the men, any time you talk to them, 
that is what they want to do.  That is what they want to do. 


And in conclusion, I would like to add my thanks to Congressman 
Bilirakis for his many years of service to our country and to his 
advocacy, especially for the veterans and specifically for the 
Purple Heart.  And we wish you the best.  You will certainly be 
missed, but I understand we hopefully will have your son here. 


Mr. Chairman, I thank you for the opportunity to speak before this 
body. 


The Chairman.  Thank you very much, Commander. 


[The statement of James Randles appears on p.  ] 



**********INSERT**********


The Chairman.  You spoke with great passion, you and also the 
Sergeant Major, actually all of you, in identifying the values for 
which we have been inculcated with that are also the envy of many 
within our society.  They try to learn.  They try to understand.  
But there is a dimension which they will never know.  But at the 
same time, we have to be careful and we have a responsibility to 
a society to help lead where we can. 


And, you know, Congress also, when the VA opened its doors, still 
embraced a system of priorities, one through eight.  And we also 
gave authorities to the Secretary, recognizing that there could be 
times where the country finds itself at war. 


And I think even in the Independent Budget, I remember reading in 
the Independent Budget where it talked about the core mission of 
the VA to care for those with disabilities. 


So, you know, I heard you, Colonel.  I am one that I would never 
ever fail to place someone ahead of me that has got it worse off.  
That is me. 


So on Friday, I get to do something really unique that I enjoy every 
year.  I get to put on the uniform on Friday.  And I really enjoy 
that because I also get a chance to talk to the men and women who 
serve.  And, Sergeant Major, it keeps me in touch. 

We, all of us, as we have traveled and have seen, so many, in our 
Poly Trauma Centers, and the professionalism of the doctors and the 
nurses and support staff and technicians in what we do to save a 
life.  It is absolutely remarkable.  What we as a nation do to save 
that life, we go to any expense. 


And we are challenged in our goals on seamless transition, but we 
are not challenged when it comes to our sincerity in care for that 
man or woman who fell.  And I am really proud of them.  I am proud 
of the active duty counterparts and how they are saving more lives 
today than ever. 


Individuals that you served with, when you reflect back, those who 
did not make it off that battlefield, but today we are saving that 
life.  And when we save that life, they also are individuals that 
have greater disabilities and greater challenges.  And we have to 
embrace that to give them every opportunity to live full and 
complete lives as much as possible. 
 

And so I recognize.  This is my 14th year on this Committee and as 
I reflect back over the years, I have enjoyed my service with many 
members on this Committee who share the commitment.  And Michael 
Bilirakis has been one of those individuals who has always served 
the interest of America's veterans. 


And there are those who were quick to bring out the political or 
partisan barbs.  And Mr. Bilirakis has always been one to bring 
calm.  And I suppose why I enjoy that uniform so much is because 
in this town, everybody walks around this town with political 
labels and nobody asks you if you are Republican or Democrat or an 
Independent when you put on the uniform. 


And that is what this is supposed to be about.  And sometimes we -- 
I will include myself, I will include veteran organizations, 
military organizations, it is a political town -- and sometimes 
we have to always remember to be centered with regard to why we 
serve and what we do. 


And I appreciate all of your testimony today.  It is valuable.  It 
is very helpful to us.  And so, Commander Randles, I appreciated the 
sincerity in which you delivered your testimony.  And, of course, 
you know, you get to serve with someone who served the VA very, 
very well for many years.  And we appreciate his service. 


What I did to the first panel, I would also ask all of you, about 
this issue of these individuals who did not report for duty.  I 
would like for you to look at the issue.  I do not think this is 
one we should let get away.  The regulations and the laws are very 
clear.  If these individuals had a special circumstance, the 
Secretary has abilities to make waivers and take these circumstances 
into account.  But if these are individuals who just said no, they 
should not be receiving general discharges which would allow them 
to gain access to benefits of other individual soldiers, sailors, 
airmen, and Marines. 


I notice some of you are nodding your heads, but I want you to go 
back and get that one from your organizations.  I think we are 
all in agreement here.  But if we all get in agreement, we can 
send the right message to the Pentagon.  I do not want to pick 
up the phone and call over there.  There is such thing called 
undue influence.  But we can let the Commanders know generally 
how they should handle these individuals. I think it would be 
very appropriate. 


I now need to turn this all over to Mr. Bilirakis.  I need to go.  
We have got the Katrina hearing and we are going to vote to approve 
our report and make comments.  So I will turn the Committee over 
now to Mr. Bilirakis. 


And, gentlemen, thank you very much for your testimony. 


Mr. Bilirakis.  [Presiding]  Thank you, Mr. Chairman.  Thank you for 
those kind comments.  And I appreciate the comments from the panel, 
and I will just go ahead from here if I may. 


I should really call -- I cannot see you back there.  You are hiding. 


Mr. Filner.  Me? 


Mr. Bilirakis.  Yes.  I will go ahead and yield to you. 


Mr. Filner.  Thank you, Mr. Chairman.  And I do not often agree with 
Mr. Buyer, but his comments with regard to you were very eloquent and 
I share them.  And we do appreciate all your service.  You have 
taught us all a great deal.  So thank you. 


I was going to ask Mr. Buyer again if he wanted to define the core 
veterans, but I guess we are -- I instructed the Council to prepare 
a bill that is called the Steve Buyer Core Veterans Act which -- 


Mr. Bilirakis.  Be nice, Bob.  Be nice. 


Mr. Filner.  I am.  It redefines that we rename the Veterans' 
Administration as the Core Veterans' Administration.  We changed the 
slogan to care for the core who has borne to battle and define it 
pretty clearly. 


But with all the nice words that we heard, the Chairman will defend 
this budget that the President gave which is -- you all have been 
very nice.  And by the way, I agree with it.  Mr. Buyer, also, you 
were very eloquent and we learned a lot from you. 


This budget is insufficient.  You can say it is better than last 5 
years but it is not.  The games that are played with these numbers 
make it as bad or worse than the previous submissions.  If you 
count everything that we should be counting, we are somewhere 
between three or four billion short just in the way we are defining 
it here. 


I am convinced that this Chairman that the majority put in, and the 
Secretary of VA that was put in was put in to downsize the VA and 
to make it less open to all the veterans who have served this 
nation.  
 
The fact that Mr. Buyer has cancelled the joint hearings where 
your membership comes I think it is beyond just what one of you 
said, that people like to hear the Commander and applaud.  It is 
a sense that the country that they fought for is a democracy and 
that they participate in this democracy, that they are part of 
it, that their ideas count.  They could directly talk to the 
representatives on this Committee and visit their Congressmen.  
But the hearings would provide a participatory thing. 


What Mr. Buyer wants to do is cut that off, and I think they want 
to cut it off because they are afraid of more people understanding 
what they are doing to the VA and what they are doing to veterans. 
 They do not want your membership to participate, and I think that 
you should confront that head on. 
 
The Commander here talked about the March on the Hill.  I think we 
should turn those annual meetings into such a march and carry out 
the participatory function that those meetings serve.  I would go 
to Mr. Buyer's office with all 5,000 people that come, ask to 
see him, and talk about what core veterans are.  Stay there for 
a little while if he does not see you. 


I would surround the Capitol until we passed a budget that is worthy 
of you.  You have got a lot of people who know how to bivouac, and 
we could have an interesting demonstration.  I do not think they 
would kill anybody like the bonus marchers, but they would 
eventually give the benefits that we think are so important. 
 
I think the VSOs have to be in touch with their membership and 
reinvigorate a grass roots rather than allow it to be cut off as 
this Administration apparently wants to do. 


I would take this as an opportunity for a new kind of political 
action and demand the kind of budget that is worthy of your 
sacrifices.  I would bring them all here and let us invent a 
new way.  If they want to cut off those joint hearings, let us 
find a different way to maximize a sense that the folks who have, 
in fact, fought for our freedom can participate in it and 
defend it. 


So I look forward to working with you all to do that. 


Thank you, Mr. Bilirakis. 


Mr. Bilirakis.  Thank you, Mr. Robert. 


Well, first, let me just say regarding the cutting out of the joint 
hearings, I oppose that.  Mr. Chairman knows it.  But I would not, 
with all due respect, Mr. Filner, agree that it was done for the 
reasons stated. 


He felt that by getting the veterans' organizations involved earlier 
in the game that they would be a part of hopefully formulating the 
veterans budget. It would take a lot of cooperation with the 
Administration, whichever Administration it might be in the process, 
but still helping to formulate whatever that spin would be. 


And so in any case, I think that whatever rationale Steve uses is 
worthy of attention as much as rationale by Mr. Filner or anybody 
else. 


Commander Randles, I believe it was you who emphasized -- the troops 
returning with the injuries, serious injuries.  I have gone to 
Walter Reed and I have seen them, too, and it has brought tears to 
my eyes. 

I also went to Iraq as did many of us up here, and I visited a 
hospital in Balad, Balad Air Force Base.  It is about 40 miles north 
of Iraq.  I spent some time there and talked to a lot of the 
injured, a lot of the wounded.  And every one of them, man and 
woman, and there were at least two women in there at the same time, 
said they wanted to get back to their units. 


The spirit and the morale is just unbelievable, and I might add the 
faith in their government.  And I think some of the things that 
are coming from over here are going to probably hurt as far as that 
faith is concerned.  But in any case, I would agree with you.  They 
are just something special. 


Just very quickly, I am not going to really ask the question, but I 
will say this.  During my first few years here, constantly the 
point was raised third-party payer.  And the veterans' organizations 
in general -- and I am not trying to put words in their mouths -- 
but in general opposed that because they said they should be 
completely separate veterans' health care and it should be paid 
for by the taxpayers, veterans' dollars, if you will.  And, 
therefore, they did not want any third-party payer at that point 
in time. 


Well, eventually as a result of budget problems, we all evolved 
in that particular area.  So now we are doing it to some degree. 


Mr. Filner mentioned -- I think he is the first one who mentioned 
the Medicare subvention.  It is part of your presentations too.  
It is something that we have considered over a period of time.  
There is the problem of two hands there, one being Medicare and 
the other being the veterans.  And if you take it from Medicare 
and give it to the veterans, then you are causing problems on the 
Medicare side and whatnot.  And I am sure you understand that. 


But if we had Medicare subvention, and I tend to feel that we 
should have, if we had it, and if we could not get it for just 
those combat related, not service connected, but if we could not 
get it for just the service connected or the non-service 
connected -- the non-service connected, I believe, is the position
of the organizations -- if we could not get it for just the 
non-service connected, but we could also get it for some of the 
service-connected conditions or if we got it just maybe for the 
combat related, service-connected conditions, if you will, 
whatnot, how would you feel about that? 


In other words, rather than all or nothing on Medicare subvention, 
with the possibility of maybe of a half a loaf, I am just curious 
because, you know, this all came up during the third-party payer 
business. 


Go ahead, Mr. Miller. 


Mr. Miller.  Mr. Bilirakis, I think the very early proposals 
envisioned exactly that.  Medicare subvention would only be for 
those veterans who were being treated for a non-service-connected 
condition, not for service connected. 


Mr. Bilirakis.  I appreciate that.  But my question is, if it did 
not include the non-service connected or if it included the 
non-service connected, but went further and included the service 
connected or maybe just limited to the combat related, service 
connected.  You know, I am talking about -- because what we have 
done with concurrent receipt is it is incremental kind of thing. 
So oftentimes we have to do that in order to hopefully reach what 
we want ultimately. 


And I am raising that particular question.  I do not know that I 
want an answer from you here now because I sprung it on you, but 
I would appreciate your thinking about that.  

But when we are talking about Medicare subvention, and when we are 
talking about third-party payer, I guess I raise the question, why 
should a service-connected veteran who has health insurance and 
pays good premiums for, this insurance and then receives care at 
the Veterans' Administration for a service-connected condition, 
but then the Veterans' Administration cannot go after that 
third-party payer? I mean, who gets benefited there?  The people 
who get benefited are the insurance companies because they are 
getting the premium and they are not having to pay out. 


And I guess I am saying the same thing regarding Medicare 
subvention.  So, you know, let us think a little broader here, and 
I am not saying that any changes are contemplated right now in that 
regard.  I do not know of any pieces of legislation that would do 
that to the extent that I have mentioned.  But it is something 
that I think we ought to be thinking about because obviously you 
all kept thinking about the third-party payer.  You did not want 
it at all initially and now you have sort of changed in that 
regard. 


So, anyhow, give some thought to it, please, and maybe you can get 
back with us.  But, again, we are all grateful to you.  This has 
been a long hearing, but well it should have been because you 
should have an opportunity to express your views. 


Thank you on behalf of all of us.  God bless you.  The hearing is 
over. 


Oh, yes.  I would say without objection, the opening statement of 
Ms. Brown and any other member of the Committee is hereby made a 
part of the record. 


[The statement of Corrine Brown appears on p.  ] 



**********INSERT**********


[The statement of Stephanie Herseth appears on p.  ]



**********INSERT**********


[The statement of Tom Udall appears on p.  ]



**********INSERT**********


[Whereupon, at 1:18 p.m., the Committee was adjourned.] 

 
</pre></body></html>
